<html>
<title> - WHAT WE DO TOGETHER: THE STATE OF SOCIAL CAPITAL IN AMERICA TODAY</title>
<body><pre>[Senate Hearing 115-69]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-69

   WHAT WE DO TOGETHER: THE STATE OF SOCIAL CAPITAL IN AMERICA TODAY

=======================================================================

                                HEARING

                               BEFORE THE
                               
                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

          Printed for the use of the Joint Economic Committee
          
          
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      
                                      

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-919                     WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2245524d62415751564a474e520c414d4f0c">[email&#160;protected]</a>           
          
          
          
          
          


                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Patrick J. Tiberi, Ohio, Chairman    Mike Lee, Utah, Vice Chairman
Erik Paulsen, Minnesota              Tom Cotton, Arkansas
David Schweikert, Arizona            Ben Sasse, Nebraska
Barbara Comstock, Virginia           Rob Portman, Ohio
Darin LaHood, Illinois               Ted Cruz, Texas
Francis Rooney, Florida              Bill Cassidy, M.D., Louisiana
Carolyn B. Maloney, New York         Martin Heinrich, New Mexico, 
John Delaney, Maryland                   Ranking
Alma S. Adams, Ph.D., North          Amy Klobuchar, Minnesota
    Carolina                         Gary C. Peters, Michigan
Donald S. Beyer, Jr., Virginia       Margaret Wood Hassan, New 
                                         Hampshire

                 Whitney K. Daffner, Executive Director
             Kimberly S. Corbin, Democratic Staff Director
                           
                           C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Mike Lee, Vice Chairman, a U.S. Senator from Utah...........     1
Hon. Martin Heinrich, Ranking Member, a U.S. Senator from New 
  Mexico.........................................................     2

                               Witnesses

Statement of Dr. Robert D. Putnam, Peter and Isabel Malkin 
  Professor of Public Policy, John F. Kennedy School of 
  Government, Harvard University, Cambridge, MA..................     5
Statement of Dr. Charles Murray, W.H. Brady Scholar in Culture & 
  Freedom, American Enterprise Institute for Public Policy 
  Research, Washington, DC.......................................     7
Statement of Dr. Yuval Levin, Hertog Fellow, The Ethics and 
  Public Policy Center and Editor of National Affairs, 
  Washington, DC.................................................     9
Statement of Dr. Mario Small, Grafstein Family Professor, 
  Department of Sociology, Harvard University, Cambridge, MA.....    11

                       Submissions for the Record

Prepared statement of Hon. Mike Lee, Vice Chairman, a U.S. 
  Senator from Utah..............................................    36
Prepared statement of Hon. Martin Heinrich, Ranking Member, a 
  U.S. Senator from New Mexico...................................    36
Prepared Statement of Hon. Margaret Wood Hassan..................    37
Prepared statement of Robert D. Putnam...........................    38
Prepared statement of Dr. Charles Murray.........................    57
Prepared statement of Dr. Yuval Levin............................    59
Prepared statement of Dr. Mario Small............................    69
Response from Dr. Putnam to Questions for the Record Submitted by 
  Senator Margaret Wood Hassan...................................    84
Response from Dr. Putnam to Questions for the Record Submitted by 
  Senator Amy Klobuchar..........................................    85
Response from Dr. Small to Questions for the Record Submitted by 
  Senator Amy Klobuchar..........................................    86
Response from Dr. Small to Questions for the Record Submitted by 
  Ranking Member Martin Heinrich.................................    87
Chart titled ``Real Hourly Wages by Education'' submitted by 
  Senator Cotton.................................................    89
Report titled ``What We Do Together: The State of Associated Life 
  in America'' prepared by Vice Chairman Lee's staff of the Joint 
  Economic Committee.............................................    90

 
   WHAT WE DO TOGETHER: THE STATE OF SOCIAL CAPITAL IN AMERICA TODAY

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                    United States Congress,
                          Joint Economic Committee,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:02 a.m., in Room 
106 of the Dirksen Senate Office Building, the Honorable Mike 
Lee, Vice Chairman, presiding.
    Representatives present: LaHood, Maloney, Beyer, Jr., and 
Paulsen
    Senators present: Lee, Cotton, Cruz, Heinrich, Klobuchar, 
and Peters.
    Staff present: Daniel Bunn, Kim Corbin, Connie Foster, 
Martha Gimbel, Heath Hansen, Colleen Healy, Adam Hersh, 
Christina King, Paul Lapointe, Justus Myers, Thomas Nicholas, 
Matthew Nolan, Kwabena Nsiah, Victoria Park, Ernesto Rodriguez, 
and Scott Winship.

   OPENING STATEMENT OF HON. MIKE LEE, VICE CHAIRMAN, A U.S. 
                       SENATOR FROM UTAH

    Vice Chairman Lee. Welcome. We call this hearing on the 
Joint Economic Committee to order. The title that we have 
selected for this hearing is ``What We Do Together: The State 
of Social Capital in America Today.''
    I want to thank each of our witnesses and our Committee 
members for joining us today.
    Our Nation today faces very real economic challenges. As we 
heard during our Committee's hearing last month, economic 
growth during the recovery has been meager and uneven. The U.S. 
economy has become less dynamic and innovative than in recent 
decades. We miss the strong productivity growth America enjoyed 
in the mid-twentieth century and the unusually large wage gains 
it brought.
    However, in historical and comparative perspective most 
Americans enjoy unprecedented material living standards. Our 
economic problems often take the form of unsatisfactory rates 
of improvement. We are growing richer less quickly than we did 
when we were poorer.
    Nevertheless, many Americans--poor, middle class, and 
wealthy--feel that something in our society is amiss. It is a 
feeling that cannot be reduced to economic anxiety. Rather, 
there is a sense that our social fabric in America is fraying.
    And these concerns are reflected in objective measures of 
family and community health. To cite just a few of the trends 
that may be grouped under the rubric of ``social capital'': 
marriage and church going have declined; distrust of the 
Nation's institutions has grown; mixed-income neighborhoods 
have become rarer; regional polarization has increased; and 
young men who are neither working nor looking for work have 
become more numerous and more isolated. We do less together 
than in the past, and we are worse off for it, economically and 
otherwise.
    Today's hearing, along with a new report released on 
Monday, launches the Social Capital Project, a multi-year 
research effort that I have established in the Vice Chairman's 
office. The project will investigate the health of the bonds of 
family, faith, community, and work that define our lives.
    An emphasis on social capital complements the economic lens 
through which we typically view national challenges today. Many 
of our ostensibly economic problems reflect the withering of 
our associational life. For example, the fragility of so many 
families today reduces upward mobility. And diminishing trust 
has implications for the decline in business dynamism since 
risk-taking requires confidence in each other and our 
institutions.
    Economic trends in turn affect the extent to which we 
cooperate to achieve our desired goals. The project's inaugural 
report, ``What We Do Together,'' concludes that rising 
affluence has reduced the economic necessity of having close 
ties with neighbors and traditional institutions. It also 
highlights the extent to which the growth in two-worker 
families has affected investment in social capital. These 
economic changes have conferred valuable benefits to be sure, 
but by depleting social capital they have also come with costs.
    The twin pillars of economic--of American freedom--a free 
enterprise economy and a voluntary civil society--exist and 
operate within the vital space between the government and the 
individual where organic communities form and networks of 
economic opportunity and social cohesion are built.
    It is my hope that the Social Capital Project will start a 
new conversation for our country that emphasizes social 
solidarity and mutual cooperation. As we face today's economic 
challenges, policymakers should ask how we can empower civil 
society, and what government should or should not do to thicken 
the middle layers between the individual and the State.
    I will now turn to the Ranking Member, Senator Heinrich, 
for his opening statement, and then I will introduce our 
witnesses. Thank you.
    [The prepared statement of Vice Chairman Lee appears in the 
Submissions for the Record on page 36.]

 OPENING STATEMENT OF HON. MARTIN HEINRICH, RANKING MEMBER, A 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Senator.
    The topic of Social Capital is an important one, especially 
when it is used to build communities up. I worry, though, that 
this conversation can be used to blame disadvantaged 
communities for not already being successful.
    It is easy to generalize about people and communities, but 
I believe we must resist doing that. Because otherwise, 
Congress, instead of building communities up, risks 
institutionalizing stereotypes and discrimination. It is 
offensive and, frankly, not constructive to blame communities 
for the challenges that they face today. Blame is no substitute 
for a strong economic foundation, and smart investments in our 
children and our workers. Social networks help, but investments 
in individuals and communities are key to building a better 
future and a more vibrant economy.
    I think we would all agree that Congress cannot and should 
not force people to marry, become friends with their neighbors, 
or even join civic organizations or churches. We need to be 
both strategic and realistic about the policies that we pursue.
    When I was a child, both of my parents worked. For my 
father, his union job helped him to earn a higher wage, and 
protections at work. Belonging to a union is a source of social 
capital and my family benefited from that. I benefited from 
that.
    My mother, on the other hand, did not have a union job and 
at one point her factory schedule was three weeks on, one day 
off, plus overtime nearly every day. Her wage under-valued her 
work and under-valued her, leaving her with little time to 
spend building those networks.
    So as we prepare to hear about the role of social capital, 
about ways to help working families get into the middle class, 
to even have the time to make community connections and shore 
up social capital, it is important that we not lose sight of 
investing in people like my mother.
    Right now the deck is stacked against some and in favor of 
others. Children of wealthier parents start with a leg up. Good 
schools are increasingly concentrated in high-income areas, 
leaving millions of our children behind. While a college 
education has long been thought of as the path to the American 
Dream, that path is financially out of reach for far too many 
Americans.
    As Americans we have a deep commitment to everyone getting 
a fair shot. To achieve that, government has a significant role 
to play. It must provide the essential building blocks: 
affordable child care and pre-K; quality K through 12 
education; comprehensive health care and access to affordable 
post-secondary education.
    We can break the cycle of poverty by simultaneously 
providing programs and supports to parents and their children. 
The two-generation approach is evidence-based. It is data-
driven bipartisan policy with a history that works.
    I have seen the power of 2Gen models in New Mexico with 
initiatives like the United Way's Early Learning Center in 
Santa Fe, which offers year-round full-day services for 
children right next to technology, employment, and social 
service assistance for parents under one roof.
    Helping parents and children in these programs develop 
supportive networks is an important component of helping these 
families achieve success and building stronger communities. We 
must expand proven programs like the EITC and the Child Tax 
Credit that lift almost 10 million people out of poverty each 
year.
    We need universal pre-K starting at age 3. We have long 
known that investments in early education boost education 
outcomes and increase earnings. Government cannot and should 
not go it alone. In Gallup, and Carlsbad, Silver City, and 
throughout New Mexico it is the schools, the churches, the 
nonprofits, the businesses, the philanthropic groups that 
define the community. They are the community anchors, but 
government must provide the basics.
    Professor Small's research on Head Start attendance reminds 
us that limited, inexpensive interventions can have deeply 
meaningful impacts. His research found that when parents of 
Head Start students develop networks, attendance improved. Just 
one example, but we can learn two important things from this 
research. First, that social networks can strengthen an already 
effective program. And second, that without that government 
program we would not have the foundation on which to build.
    I look forward to your testimony.
    [The prepared statement of Senator Heinrich appears in the 
Submissions for the Record on page 36.]
    Vice Chairman Lee. Thank you, Senator Heinrich. Now I would 
like to introduce each of our witnesses.
    Dr. Robert Putnam is the Peter and Isabel Malkin Professor 
of Public Policy at Harvard University. He is also a member of 
the National Academy of Sciences and the British Academy, and a 
past president of the American Political Science Association. 
He has received a number of scholarly honors, and has written 
14 books, including ``Bowling Alone'' and his latest book, 
``Our Kids: The American Dream In Crisis.''
    Dr. Putnam graduated from Swarthmore College where he won a 
Fulbright Fellowship to study at Balliol College, Oxford, and 
earned Masters and Doctorate Degrees from Yale University.
    Dr. Charles Murray is the W.H. Brady Scholar at the 
American Enterprise Institute. He has written a number of 
books, including ``Coming Apart,'' and his most recent, ``By 
The People: Rebuilding Liberty Without Permission.'' His first 
book, ``Losing Ground,'' has been credited as the intellectual 
foundation for the Welfare Reform Act of 1996.
    Dr. Murray holds a Ph.D. in Political Science from 
Massachusetts Institute of Technology, and a Bachelor's Degree 
in History from Harvard University.
    Dr. Yuval Levin is the Hertog Fellow at the Ethics and 
Public Policy Center, and a contributing Editor to National 
Review and The Weekly Standard. He is the founding Editor of 
National Affairs, a quarterly journal on domestic policy in 
politics.
    He served on the White House Domestic Policy staff under 
President George W. Bush, and was also a Congressional staffer. 
He is the author of a number of books, including ``The Great 
Debate: Edmund Burke, Thomas Paine, and The Birth of Right and 
Left.'' And most recently, ``The Fractured Republic: Renewing 
America's Social Contract In The Age of Individualism.''
    He earned a Bachelor's Degree in Political Science at 
American University and holds a Ph.D. from The Committee on 
Social Thought at the University of Chicago.
    Dr. Mario Small is the Grafstein Family Professor of 
Sociology at Harvard University. He has authored a number of 
award-winning books, including ``Villa Victoria: The 
Transformation of Social Capital In A Boston Barrio,'' and 
``Unanticipated Gains: Origins of Network Inequality In 
Everyday Life.''
    He is also an author of numerous articles on urban poverty 
and support networks, and he is currently writing a book on how 
people decide to whom to turn for social support.
    Dr. Small holds a Bachelor's Degree in Sociology and 
Anthropology from Carlton College, and a Master's and Doctorate 
from Harvard University.
    Thank you all for your willingness to be here today to 
testify. And with that I would like to turn to Dr. Putnam for 
testimony, to be followed by Dr. Levin--to be followed, rather, 
by Dr. Murray, Dr. Levin, and Dr. Small.
    Dr. Putnam.

  STATEMENT OF DR. ROBERT D. PUTNAM, PETER AND ISABEL MALKIN 
     PROFESSOR OF PUBLIC POLICY, JOHN F. KENNEDY SCHOOL OF 
         GOVERNMENT, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Dr. Putnam. Thank you. Vice Chairman Lee, Senators, 
Members, I welcome this opportunity to discuss the topic of 
social capital with you, as I have done in recent years with 
grassroots groups in virtually every district and virtually 
every State represented in this entire Committee. I am sorry 
that there is not everybody here, because I would like to talk 
to them about their home districts. I have visited them and 
talked with people in their home districts about these issues 
of social capital.
    Policymakers often focus on hard economic factors, ignoring 
softer social factors. In the last 25 years, scholars have 
collected hard evidence on these softer factors under the 
rubric of social capital, making this one of the fastest 
growing areas in social science.
    The literature is reviewed in the excellent staff report, 
so I can be succinct. Social capital refers to social networks 
and the associated norms of trustworthiness and reciprocity. We 
all intuitively recognize the importance of social capital 
because we are all immersed every day in many such networks: 
our families, friends, neighbors, work colleagues, folks from 
church, folks from the bowling league, even someone you met 
last night while celebrating the Celtics victory.
    Scholars have learned in recent decades just how deeply 
such networks influence our health, our happiness, prosperity, 
the safety of our streets, the productivity of our firms, the 
performance of our schools, and even the quality of our 
democracy.
    To illustrate the importance of social capital, I want to 
focus briefly on two policy issues, the first rooted in the 
early stages of life, the growing opportunity gap between rich 
kids and poor kids in America; and the second, an unnoticed 
problem that will arise when the Bowling Alone generation 
becomes the aging alone generation.
    First, the opportunity gap. As I described in my book ``Our 
Kids,'' the last several decades have witnessed a growing gap 
between rich kids and poor kids in the resources and the 
opportunities they have for upward mobility and personal 
success. In a perfect social storm, the opportunity gap causes, 
including as Charles Murray has pointed out, growing economic 
inequality, increasing class segregation, and the collapse of 
the working class family.
    Social capital contributes to the opportunity gap. For 
example, families in the lower third of the population of all 
races and ethnic groups, in that part of the society the 
families are increasingly fractured and fragile, as illustrated 
in J.D. Vance's ``Hillbilly Elegy.''
    Scholars from various sides of the political divide 
disagree about exactly why this has happened, the collapse of 
the working class family, but all sides now agree that fragile 
families are bad for kids.
    Poor kids are also isolated from community life, from 
neighbors, clergy, civic associations, and even extracurricular 
activities like sports and music. This extracurricular gap in 
turn contributes to a gap in mentors, like coaches, and in soft 
skills like teamwork and grit, and even, eventually, 
differences in lifetime income, attributable to the 
difference--to this extracurricular gap.
    This class gap in football and band and so on is new to our 
history, and the explanation is simple and yet shocking: pay to 
play. When cost-cutting school boards in response to our 
pressure as voters began charging parents hundreds of dollars a 
year for a kid to play sports, it is no surprise that poor kids 
dropped out.
    In short, ignoring social capital has led directly to the 
opportunity gap. My second example is this:
    Bowling Alone is leading to aging alone, and that matters a 
lot. Providing care for aging Americans is a growing challenge. 
We all recognize the massive number of Baby Boomers now 
retiring, but few understand that per person Boomers will enjoy 
much less informal elder care than their parents. Many aging 
Americans now rely on paid elder care like nursing homes and 
home health care aides, but an estimated three-quarters of all 
care for Americans over 65 is provided by family, friends, 
neighbors, and civic organizations.
    Crucially, however, that statistic--three-quarters of all 
care--is based on the experience of the Greatest Generation, a 
now-vanishing cohort that had very high levels of social 
capital. By contrast, Boomers are now entering their sunset 
years with much less social capital. Compared to the previous 
generation as they, the previous generation, approached 
retirement, Boomers have roughly 12 percent fewer spouses, 36 
percent fewer children, 30 percent fewer close friends, and 40 
percent fewer religious and community ties of the sort the 
Chairman referred to--sorry, Vice Chairman.
    In round numbers, in short, Boomers are entering retirement 
with one-third less social capital than their parents enjoyed. 
And that is not an academic matter. Social isolation is a 
strong predictor of morbidity and mortality, especially among 
the elderly. Less recognized is that lower social capital among 
Boomers compared to their parents will make it harder for 
Boomers to count on informal care as they age.
    Consequently, the need for paid elder care will rise 
sharply above current expectations, not simply because there 
are more Boomers but because fewer of them will be able to rely 
on informal care. Over the coming decades, paid elder care per 
Boomer will on average have to double as compared with the 
previous generation.
    Now I know this is a policy discussion, but one could 
imagine progressive or conservative approaches to this problem, 
or a combination of both, but the problem itself will not 
vanish. This threat to our Nation's health, both fiscal and 
physical, stems directly from the Bowling Alone in the 1970s, 
which will lead to Aging Alone in the 2020s.
    As with many other public institutions, including the 
opportunity gap, social capital is an under-appreciated 
dimension of this problem.
    I look forward to your questions.
    [The prepared statement of Dr. Putnam appears in the 
Submissions for the Record on page 38.]
    Vice Chairman Lee. Thank you.
    Dr. Murray.

STATEMENT OF DR. CHARLES MURRAY, W.H. BRADY SCHOLAR IN CULTURE 
 AND FREEDOM, AMERICAN ENTERPRISE INSTITUTE FOR PUBLIC POLICY 
                    RESEARCH, WASHINGTON, DC

    Dr. Murray. I welcome the chance to testify before this 
Committee, and especially I welcome the chance to emphasize 
something in this polarized age. The staff of the Committee 
produced a report that I think Professor Putnam and I both 
agree is a really terrific report.
    Professor Putnam and I are on very different points of the 
ideological spectrum. I consider him to be the world's greatest 
authority on social capital, and whereas we have some 
differences in policy recommendations the differences are 
overwhelmed by the ways in which we agree. I think that is 
heartening, and I hope that we can take advantage of that in 
dealing with this problem.
    In terms of what I can add to the discussion today, I have 
decided to try to focus on some of the ways in which this 
problem is so complicated, because I think that when we talk 
about statistics like the falling marriage rate, or the rising 
drop out from the labor force by males, that it lends itself 
to, well, the solution is we need higher working class wages so 
that it's easier for people to get married. Or, we need more 
job opportunities and guys will come back into the labor force.
    I am not saying that such solutions would have no good 
effects; I think they would. But the actual ways, and the 
actual problems reach deeply into the ways that humans are 
socialized into institutions such as marriage and the labor 
force. And a good way to get a grip on those actual problems is 
``Our Kids.''
    Bob Putnam's book that I think is just terrific, as I have 
said in print. It is at the heart of that book, and the reason 
I urge the Members of the Committee to read it, are these 
wonderful, beautifully told and beautifully researched stories 
of real people and real families. And what I admire most about 
the way these are told is, the narratives have not been 
sanitized to make them easy to deal with.
    We hear the voices of the unemployed whose manufacturing 
jobs were exported abroad. That is a real problem. And the 
voices of people who quit good jobs because they did not feel 
like working, or who got fired because they showed up late, 
shirked their tasks, and got in fights with co-workers--another 
real problem.
    We hear stories of unmarried low-income parents who are 
fiercely devoted to their kids, and of other parents who 
created children casually and walked away from them casually. 
If I had to pick one theme threaded throughout all of these 
stories, it is the many ways in which people behaved 
impulsively but were oblivious to what would happen to them if 
they made the wrong step.
    This theme also appears in steroids in J.D. Vance's 
``Hillbilly Elegy.'' In many ways he describes a life history 
which was full of opportunity--prodigiously squandered 
opportunities. You read Vance's account and keep saying to 
yourself: Why are they behaving so destructively?
    I respect Mr. Heinrich's caution that we must not blame 
people for things beyond their control. It is also true that 
the real stories of real people and real communities get very 
messy in these kinds of ways. It comes down to the age-old 
problem of getting people, especially young people, not to do 
things that are attractive in the short term but disastrous in 
the long term. And, conversely, get them to do things that are 
not fun right now but that will open up rewards later in life.
    This is not a problem confined to any one socioeconomic 
class. The mental disorder known as adolescence afflicts rich 
and poor alike. And adolescence can extend a long time after 
people have left their teens.
    The most common way that the fortunate among us manage to 
get our priorities straight--and by ``fortunate among us,'' I 
am not really talking about money--is by being cocooned in the 
institutions that are the primary resources for generating 
social capital: a family consisting of married parents and 
active membership in a faith tradition.
    I did not choose that phrasing lightly, even though I 
realize it pushes buttons. I am not implying that single women 
are incapable of filling this function. Millions of them are 
heroically trying to do so as we speak, nor that children 
cannot grow up successfully if they don't go to church.
    With regard to families, I am making an empirical 
statement. As a matter of statistical tendencies, biological 
children of married parents do much better on a wide variety of 
life outcomes than children growing up in any other family 
structure, even after controlling for income, parental 
education, and ethnicity. And they do so, I would argue, 
because of the ways in which they keep adolescents from doing 
destructive things.
    With regard to religion, I am making an assertion about a 
resource that can lead people, adolescents and adults alike, to 
do the right thing, even when the enticements to do the wrong 
thing are strong: a belief that God commands them to do the 
right thing. I am also using religion in terms of its role as a 
community, a community of faith, another borrowing from Robert 
Putnam.
    For its active members, a church is far more than a place 
where they go to worship once a week. It is a form of community 
that socializes the children growing up in it in all sorts of 
informal ways just as the family socializes children. This is 
not a prelude to a set of recommendations. I do not have any.
    Rather, I am just trying to argue that it is not a matter 
of ideology but empiricism to include that unless the 
traditional family and traditional communities of faith make a 
comeback, the declines in social capital that are already 
causing so much deterioration in our civic culture will 
continue, and the problems will worsen. The solutions are 
unlikely to be political, in my view, but cultural.
    We need a cultural great awakening akin to past religious 
great awakenings. How to bring about that needed cultural great 
awakening? It beats the hell out of me.
    [The prepared statement of Dr. Murray appears in the 
Submissions for the Record on page 57.]
    Vice Chairman Lee. Thank you. Dr. Levin.

STATEMENT OF DR. YUVAL LEVIN, HERTOG FELLOW, ETHICS AND PUBLIC 
    POLICY CENTER, EDITOR, NATIONAL AFFAIRS, WASHINGTON, DC

    Dr. Levin. Vice Chairman Lee, Ranking Member Heinrich, 
Members, thank you very much for the opportunity to testify. 
And more than that, thank you for taking up this subject this 
morning. It is very encouraging to see the Joint Economic 
Committee turning its attention to the question of social 
capital, which I think is a crucial economic question. And I 
commend you and your staff for excellent work already evident 
in the report that you just released, and for the promise that 
it suggests about the Committee's continuing efforts on this 
front.
    In my written testimony I suggest why I think this question 
of social capital or associational life has to be part of any 
discussion of the country's economic prospects, and especially 
of the challenges that are confronted by the most vulnerable 
Americans.
    In these brief remarks this morning, let me say a few words 
about the challenges of making this a part of our policy 
conversations and how I think that might be undertaken 
responsibly.
    Maybe the best thing about the report that your Committee 
staff has produced is that it is unabashedly diagnostic. Too 
often those of us who are engaged in these debates are afraid 
to be dismissed as political radiologists. The radiologist will 
look over your scans very carefully and tell you half your ribs 
are broken. I hope somebody can help you with that. Good luck. 
And move on to the next patient.
    And I think many of us who study this subject often feel 
that way. We tend to respond to that by ending our discussions 
of this, or ending books and articles about it that offer a 
valuable diagnosis with prescriptive conclusions that are 
frankly often less valuable.
    The characteristic book on this subject, and I genuinely do 
exempt present company from that description, will offer 
profound and subtle analysis of what has happened to American 
associational life and why, and then will tack on some general 
ideas about how tweaking various social programs might make a 
difference at the margins.
    If the problems are as profound as we say, those solutions, 
although they can be valuable, are unlikely to cut it. And yet, 
if more comprehensive and radical reforms are needed, we do not 
have real evidence of what will work on a large scale. And in 
some cases we lack evidence even of what will work on any small 
scale.
    Obviously, stopping a diagnosis is unsatisfying and 
insufficient, particularly for policymakers, but we do need to 
make sure that we start at diagnosis. And we have to make sure 
that we do not simply see that diagnosis as an excuse to double 
down on policy preferences that are not actually rooted in it.
    That is what happens a lot of the time, I'm afraid. Our 
social policy debates between the left and the right today 
usually amount to arguments about whether we should do more or 
less of what we are already doing. The left wants more and 
calls for increasing our investment in the model of social 
policy that we have. Generally speaking, the model built up 
around the Great Society.
    The right wants less, and argues for pulling back on those 
investments and letting other actors fill the space. And 
evidence about social capital is generally just stuffed into 
these boxes so that some progressives will say that stronger 
associational lives are only possible when basic material wants 
are met, which is certainly true, and that it is not happening 
sufficiently for too many Americans. So the evidence about 
social capital supports the case for greater investment in the 
existing safety net, or the case that inequality is the root of 
our problems.
    Some conservatives will say there are social programs that 
sometimes actively undermine our associational lives in the 
amassing of social capital by substituting for work, and 
family, and community, rather than reinforcing them, or by 
undermining personal responsibility.
    These sets of arguments are both correct, up to a point, 
but neither is sufficient. The evidence regarding social 
capital can support both views, but I think it actually 
gestures toward a rather different view.
    It is true of course that meeting basic material needs is 
essential, and that our society has an obligation to help those 
who need help doing that. But it should be clear by now that 
this alone will not address the deep social dysfunction that 
results from the loss of social capital in American life.
    It is also true that there are ways in which our social 
policy contributes to that loss of social capital, but that 
does not mean that rolling back that policy will reverse the 
loss. More importantly, it does not mean that the past half-
century of social policy has been a failure. The War on Poverty 
has not failed. It has dramatically reduced extreme poverty in 
America, and it would be a perverse reading of the evidence on 
social capital to suggest that we should undo that important 
progress against poverty.
    But what the evidence does suggest is that the approach we 
now have to social policy is not adequate to helping revive 
associational life in America. It does not do a good job of 
either building on what works, or uprooting what does harm, and 
neither doing more nor doing less of it would by itself amount 
to a prescription that is responsive to the diagnosis when it 
comes to social capital.
    In part, that means that we should accept that public 
policy in general is not going to solve the problems of 
associational life in America. It could do more to help. It 
could do less to hurt. But it will not be the core of the 
solution.
    But that cannot be all that we say. We have to also think 
about how policy might help more and hurt less, and that 
requires us to look beyond the familiar model of our social 
programs and think about what genuinely different approaches 
might look like.
    We need an approach to social policy that is rooted from 
the start in some understanding of the problem of social 
capital. And we do not have that approach, which means that we 
will need to seek it by some experimentation and some period of 
learning.
    To me, for one thing that points in the direction of 
empowering local institutions to attempt different approaches 
to our foremost social problems as they present themselves in 
different parts of our society. That is not because we know 
that local works better. In some instances it may. It is 
because we do not know what works, and experimentation is what 
you do when you do not have the answers.
    As my written testimony suggests, I think that this argues 
for some devolution of policy design, and not just policy 
implementation in welfare, and in labor policy, to a degree 
also in education and other arenas. And some work along these 
lines has been attempted over the years of course, so we can 
learn from both its successes and its failures. But above all, 
even more than arguing for local power, all of this argues for 
humility. And it argues for proper diagnosis, which has to 
precede any attempt at using public policy on a large scale.
    And so it adds up to commending the work that you are 
beginning here, and again to thanking you for inviting me to 
participate this morning. I look forward to your questions.
    [The prepared statement of Dr. Levin appears in the 
Submissions for the Record on page 59.]
    Vice Chairman Lee. Thank you.
    Dr. Small.

   STATEMENT OF DR. MARIO SMALL, GRAFSTEIN FAMILY PROFESSOR, 
   DEPARTMENT OF SOCIOLOGY, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Dr. Small. Vice Chairman Lee, Ranking Member Heinrich, and 
other Members of the Committee, I thank you for the invitation. 
I appreciate the opportunity to contribute to the discussion of 
social capital and economic opportunities.
    Social capital is something that nations can have, and 
something that individuals can have. A nation's social capital 
is its degree of connectedness, sense of community, and 
participation. And as you all have read, there is an ongoing 
debate over whether these conditions have declined in the 
United States over the last 50 years.
    Today I will focus instead on the social capital of 
individuals, which is the resources that people have access to 
by virtue of their networks. These resources can be of many 
different kinds. There are three that are especially important: 
information, social support, and the reinforcement of norms.
    To be clear, I will use an example. Consider someone who 
has decided to improve his health by beginning to lift weights. 
This person can go it alone, but having a partner on hand will 
provide access to the three resources:
    First, information as the partner is likely to have access 
to different sources of information on nutrition or lifting.
    Second, social support, as the partner can serve as a 
literal spotter to assist while pressing heavier weights.
    And third, the reinforcement of norms, as the partner will 
be a source of motivation. You are far less likely to skip 
going to the gym at six o'clock in the morning if your partner 
is going to be there waiting. These three resources will 
increase the odds that the new venture will succeed.
    The benefits suggested by this analogy are supported by the 
literature. For example, there is abundant evidence that the 
information available through networks helps people move up the 
economic ladder and get jobs. There is also evidence that the 
social support available through networks helps people avoid 
the worst mental and health consequences of major life 
stressors.
    Having noted these benefits, I must clarify two things. 
First, some commentators have used the term ``social capital'' 
to refer to core values such as hard work, marriage, and 
education. However, ``social capital'' and ``values'' are 
different things.
    Values are beliefs. Social capital is a tool. Just as the 
weight lifter is more likely to fail not because he lacks the 
values but because he lacks the partner, so may a highly 
motivated person pursuing work or education have difficulty 
meeting her goals because she lacks the information or support 
or reinforcement that is available to social networks.
    Information is especially important. For example, many 
talented low-income students do not apply to elite colleges 
because they do not know that such colleges can provide grants 
to cover the costs of their own tuition charges. This kind of 
information is well known in middle class networks and easily 
taken for granted, but it is often missing among lower income 
kids.
    Second, I clarify that social capital is no panacea. Often, 
economic resources are necessary. Just as the lifter must be 
able to afford the necessary nutritional supplements and new 
clothing and expensive gym membership, so must low-income 
children have access to proper nutrition and school supplies 
and higher quality education to have good odds of success.
    Social capital alone is not enough. I will conclude my 
comments by focusing on the role that effective policy can have 
in helping people build valuable social capital. One of the 
best sites to do so I believe is early education programs which 
can be mobilized to help not only children but also their 
parents.
    Many child care and early education programs help parents 
build social capital. A national survey recently found that 60 
percent of mothers whose children are enrolled in child care 
centers made at least one new friend there, and as a result had 
networks of close friends more than 30 percent larger than 
those of statistically comparable mothers whose children are 
not in centers.
    These networks matter for both mental and material 
hardships, for example. Low income mothers whose children are 
enrolled in centers and who made friends there had 40 percent 
lower odds of depression. The material hardship scores, or the 
extent to which they had their utilities cut off, or went 
hungry for lack of food, or showed other indicators of true 
economic difficulty, were more than 20 percent lower.
    The promise of social capital has motivated early education 
centers to experiment with different ways of improving their 
work. One randomized controlled trial managed to increase Head 
Start attendance by 7 percent in the winter months just by 
nudging parents into mobilizing their own social capital, thus 
maximizing their return on tax dollars already spent while also 
helping improve school readiness among low-income children. The 
intervention itself, I should say, cost almost nothing.
    Improving and expanding early education have been topics of 
debate in recent years. I believe thinking more expansively 
about the role of parents may prove valuable. Parents of 
children are part of a unit, and social capital is a great tool 
through which effective policy can provide all members of the 
unit true access to opportunity.
    I recommend that Congress explore the potential of 
interventions focused on social capital in contexts such as 
early education programs.
    Thank you, very much.
    [The prepared statement of Dr. Small appears in the 
Submissions for the Record on page 69.]
    Vice Chairman Lee. Thank you. I appreciate your opening 
statements. We will now begin five-minute rounds of 
questioning, and I will begin with that. Then we will alternate 
between Democrat and Republican Members of the Committee.
    I would like to open by asking each of the witnesses a 
question, and this time we will start with Dr. Small and move 
over to Dr. Putnam.
    We are trying to use this project as an opportunity to 
expand Congress's horizon, to look at things that Congress 
tends to overlook. We have metrics that Congress is constantly 
looking at, things like GDP, the rate of GDP growth, the 
percentage of GDP coming into the Federal Government through 
the Tax Code, and so forth. But limits on time and resources 
sometimes create blind spots for us as lawmakers, sometimes 
resulting in us not exploring perhaps as we should new 
perspectives on things like family stability, opioids, the 
decreased workforce participation rate, and so forth.
    So as the Social Capital Project develops its research 
agenda, what are some of the issues that you would recommend 
that we take a look at from our vantage point as policy makers, 
paying special attention of course to anything that might 
potentially garner bipartisan support.
    Dr. Small.
    Dr. Small. Sure. I think it certainly makes sense. If the 
question is what aspects of capital should we pay more 
attention to beyond the economic questions that we typically 
pay attention to, I think one issue is paying a great deal of 
attention to the things that have probably declined, but also 
the things that have probably increased.
    So there have been many--there has been substantial 
evidence of a decrease in certain forms of social capital, as 
you have all seen in the report, but there have also been new 
forms of community connectedness and engagement that simply did 
not exist 50 years ago that we now have to start measuring: The 
extent to which people can connect with people beyond their 
local communities, for example, has increased.
    Some forms of volunteering, for example, have also 
increased. Political participation beyond your local town has 
increased in many respects because the internet and social 
media make things possible that were not possible in the past.
    I think one of the most important things to do, if we are 
interested in collecting believable evidence on these 
questions, is to make sure that the nostalgia we all tend to 
face for certain kinds of things does not cloud the chance of 
looking at the new ways in which young people are finding ways 
of creating social capital. I think that is going to be an 
important part of the conversation.
    The second thing I think is also going to be an important 
part of it is looking not just at collective measures of social 
capital, and just of measures that tell us what the country as 
a whole is doing, or how the country as a whole has changed, 
but also the extent to which there are differences among 
individuals, among people of different class groups, or 
different racial groups, for example, different genders, and 
the extent to which they have access to the kinds of 
opportunities that social capital may provide.
    So I think that would be the second set of issues I would 
look at: heterogeneity within the country, as opposed to only 
trends within the country as a whole.
    Vice Chairman Lee. Thank you.
    Dr. Levin.
    Dr. Levin. Thank you for the question, and I would really 
very much second what Dr. Small has said in a number of ways. I 
think first of all this kind of project has to engage in some 
kind of sociology of success. That is, thinking about what 
works, especially amid circumstances where so much is failing.
    So in communities where there are profound problems, the 
question of how the exceptions happen, what drives them, what 
makes them possible, is a very important question to explore 
and to think about. Both because it's simply not the case that 
people simply live with failure. People respond to failure. And 
I think we in Washington are not very good at seeing the ways 
in which a statistical disaster is actually also home to some 
examples of human thriving that we need to learn from. And the 
ability that people have to thrive amid circumstances where 
social capital is absent is going to help us learn how to help 
other people succeed.
    Secondly, I also think that the sheer diversity of the 
challenges people face means that policy makers in Washington 
have to think about how to empower Americans to help each 
other. We obviously have to think also about how to use public 
policy to help individuals in difficult circumstances. But part 
of what it would mean to think about social capital as both a 
target and a means, both an end and a means, is to look for 
ways in which public policy can help people help one another, 
by empowering community institutions through which people help 
each other, and seeing that those institutions are not just 
ways of delivering benefits. They are also ways of creating 
culture.
    And ultimately what you find is that in the areas of life 
where people are not able to make decisions that are 
constructive for themselves, they change those habits because 
the culture around them changes, or because the culture around 
them drives them to change.
    You know, I was involved when I worked in the Bush White 
House in an initiative to look at ways of improving marriage 
rates in some communities, for example. And I would say that 
initiative was a failure. We tried many things. We tried it in 
ways that produced a lot of data, and the data showed that most 
of what we tried did not succeed. And by ``most,'' I mean 
really almost everything.
    The few exceptions involved circumstances where people are 
affected not by incentives that they see out of the corners of 
their eyes, but by cultures in which they live fully. And 
obviously there is a great limit on how much government can do 
in that respect, but I think we should look for ways to be 
helpful to communities that are finding ways to help their 
members succeed in difficult times.
    Vice Chairman Lee. Thank you.
    Dr. Murray.
    Dr. Murray. [Microphone is off.]
    Vice Chairman Lee. Please hit the button so we can hear.
    Dr. Murray. You have got a real problem with getting a 
bipartisan set of measures, because even though the scholarly 
end of this there is a growing consensus, I think that when I 
talked about the family, the traditional family and communities 
of faith as being major sources of social capital, I know very 
well that Bob Putnam and I could talk about this and find 
ourselves in the same page on virtually everything, not because 
ideologically we think families are great and religion is 
great, but in terms of the concept of social capital these are 
two huge sources of it.
    And so if you were going to have an index of social 
capital, like you have an index of poverty, you would have to 
have those in there. But that would mean saying, well, actually 
married families are a good thing, and unmarried families are a 
worse thing in some measurement sense with regard to social 
capital, and the same thing with regard to religion. That ain't 
gonna be bipartisan no matter what you do.
    What Bob Putnam successfully did with ``Bowling Alone'' was 
to get people of a very wide divergence of views to accept that 
we had a problem there. But I am going to turn it over to him 
right now so he can speak for himself. But he did this by 
having a whole lot of indicators.
    So he had in the book a statement that half of all social 
capital is religious in origin. That is a simplification. He 
could say that in the book, but he could still appeal to a lot 
of readers because he talked about lots of other things, too.
    So if you want somebody that will solve this problem for 
you, he is sitting to my left.
    Vice Chairman Lee. Dr. Putnam.
    Dr. Putnam. I am not sure whether that last comment was a 
friendly comment or not--that is, that I am going to solve all 
the problems. I will try to be telegraphic.
    First, social capital is a purple concept. It encourages us 
to think of problems that are intelligible not just through a 
blue lens or not just through a red lens; it requires us to 
think across ideological lines.
    And a lot of problems in the real world are purple 
problems. And as I have talked to your constituents over the 
last three or four years, ordinary people in America understand 
that problems are not either neatly red or neatly blue. It 
requires a--and I am extremely sympathetic to the initiative of 
this Committee--but it requires a certain willingness to think 
in purple terms, to understand that not every problem is either 
just a red problem or a blue problem.
    Now I will try to be brief in answer to your specific 
question, sir. I think that how to understand the internet, 
which emerged actually just after I wrote Bowling Alone, is a 
complicated question. And the question is: Will the internet 
make the problem better or worse? And the answer to that 
question is: Yes.
    That is, it will make both better and worse, and there is a 
lot of debate among experts and in the literature about the way 
social capital is affected by the internet. The crucial idea 
here I think is to think in terms of alloys. An alloy is a 
metal that is composed of two other metals, but the mixture of 
the two has properties different from either one.
    And most of our networks, most all of our networks are 
alloys. That is to say, nobody now lives solely with face-to-
face ties, and nobody now lives solely with electronic ties. 
And so you have to ask about what are the natures of the alloys 
that are mixtures of social media and face-to-faceness. Not all 
the alloys are the same, but I am urging the Committee first of 
all to focus on that.
    Secondly, do not go into it thinking that the internet is 
either the solution to all of our problems, or the root of all 
of our problems. But, thirdly, to think not in those 
dichotomous terms, either face-to-face or electronic, but 
rather to think about different forms of alloys.
    My last point is, I do think that the Committee can make a 
major contribution in providing or encouraging the executive 
branch to provide better measures at a local level for social 
capital. We do have--and I am agreeing here--we do have good 
national data about these trends. That is what I draw on, and 
that is what all of us draw on. It is much harder to be able to 
say, as I said before I have talked to almost all of your 
individual constituents. I have been in Peoria, and in Decatur, 
and I have been in actually everybody's constituency, and at 
those levels there are differences in the character of social 
capital, but we cannot talk about them in a rigorous way 
because we do not have good local-area based measures of social 
capital.
    That is not impossible; it is just not being done.
    Vice Chairman Lee. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Vice Chairman.
    I am going to yield for just a few seconds of my time to 
Senator Klobuchar. She has a meeting at the White House she 
needs to get to.
    Senator Klobuchar. Thank you very much. Thank all of you. I 
have read your book, Professor Putnam, and enjoyed it. And 
thank you for being here today.
    Today's hearing really provides a chance to look at how to 
build social capital and why it is important to look at 
policies about how we can do a better job, especially in this 
isolating time. As someone who reads their Twitter feed every 
so often, I would say it can be an isolating time with people's 
reactions to things.
    But at the same time, as I know from my State of Minnesota, 
and Representative Paulson knows from our State, is that we 
build social capital every day. It is built in the church 
basements over a hotdish on Friday nights at a raffle to raise 
money for a good cause; at the Hmong marketplace where many in 
our Hmong community and others from around the Twin Cities get 
together to shop; or the Brian Coyle Center where many in our 
Somali community--we have the biggest Somalian community in the 
country in Minnesota--gather together; or in the spaghetti 
dinner on Minnesota's Iron Range.
    So that is how I see us still building social capital. And 
now more than ever I see this isolating time of polarization, 
and I have actually seen more people turn out, whether it is 
the Jewish community center event, or an expansion of our 
Dorothy Day Center in St. Paul, than I have ever seen since I 
have been in political office.
    So it is possible that people are reacting to what they 
hear in a good way. One troubling aspect of this hearing today, 
we are here to discuss a very important issue that impacts our 
society, and I think there are many constructive ways in which 
we should examine the issue of social capital. And it is our 
responsibility to seek a wide range of expertise.
    I do want to express concern that I do not believe it is 
constructive to engage on this matter with individuals whose 
theories are drastically polarizing and have been discredited. 
And I will leave it at that, and I will submit my questions on 
this point on the record, but thank you very much.
    [The questions referred to appear in the Submissions for 
the Record on page 85.]
    Senator Heinrich. Thank you, Senator. I am going to get 
started with my questions. I want to start with you, Dr. Small.
    We have heard some different theories today about why some 
people succeed, why others do not. Are you aware of any 
evidence that inherent genetic differences drive those economic 
outcomes?
    Dr. Small. No.
    Senator Heinrich. Would it be wise for Congress to make 
policy predicated on either gender or genetic or racial 
stereotypes?
    Dr. Small. No. It would be counterproductive.
    Senator Heinrich. Alternatively, would it be wise for 
Congress to focus on policies that invest in both people and 
communities, irrespective of race, religion, creed, and also 
irrespective of how diverse, or even how remote or rural they 
are?
    Dr. Small. Absolutely. That is what I am hoping we do 
today.
    Senator Heinrich. So you have done a lot of research about 
the benefits of investing in early childhood education--for 
example, Head Start. As the Congress works to invest in our 
Nation's children, not only because it is the right thing to do 
but because investing in our kids actually means investing in 
our collective economic future, what lessons would you hope 
that members of this Committee would learn?
    Dr. Small. Thank you for the question, Senator. Yes, I 
would say a couple of things.
    One is that we pay special attention to the evidence 
concerning the importance of early education. The evidence that 
both high-quality organized early education programs work, the 
evidence that also from a cost/benefit perspective they are a 
wise investment. And the evidence that children in low-income 
communities both in the poorest inner city neighborhoods but 
also in rural parts of the country, tend to respond positively 
to those.
    The second thing I would add is that new evidence that is 
emerging from actually local experiments in multiple parts of 
the country suggest that thinking more expansively about the 
potential role of social capital and improving the benefits of 
these early education programs suggests that we could do more, 
and more effectively, by thinking a little bit more broadly 
about such programs.
    I guess the third thing I would say is that one common 
theme across many of these new experimental programs I have 
seen is the idea of no longer thinking about children and 
parents separately, but thinking about the family holistically. 
This is an issue where I found commentators on both the left 
and the right make a version of the same point: that if you 
think not just about whether you're taking care of the kid, but 
thinking about a child as part of a family unit with a 
collective, not an individual set of problems, and therefore a 
collective not individual set of solutions, you are likely to 
get far better results. And you are likely to use far better--
make far better use of taxpayer dollars.
    Senator Heinrich. Thank you for bringing that up, because 
that is one of my other particular interests in this, is the 
sort of two-generation approach to trying to deal with poverty. 
And we have seen great leadership in very diverse states from 
Utah, to New Mexico, and others, with that approach. And we 
have seen real positive outcomes from it. I have certainly seen 
that work in a number of my communities in New Mexico.
    I have actually introduced some legislation with Senator 
Collins to try and increase opportunities, and get out of those 
silos. And I think it may have been Dr. Levin who mentioned the 
War on Poverty and the progress that was made in the 1960s in 
some of these programs. But we need to recognize where we are 
today. And one of the things that I think the two-generation 
approach does is it recognizes that many of those things are in 
silos. And if they are in silos and you cannot access them, 
then they are not actually supporting the family network.
    So we will start with Dr. Small and go right across to Dr. 
Putnam because I know he has an interest in this, as well.
    What are your thoughts on the two-generation approach and 
its potential for sort of weaving these two things together, of 
basic foundational support, along with the importance of social 
capital?
    Actually, let's start with Dr. Putnam and then we will come 
back to the left.
    Dr. Putnam. I think for all the reasons, I think it is a 
terrific idea. I think for all the reasons that you alluded to, 
treating just the needs of a child--and of course that is 
important--but thinking of the child as part of a family unit 
and therefore providing coaching, and all around what is often 
called in the field wrap-around support for the family, is a 
really--the evidence says that is synergistic. You get more out 
of combining early childhood education and family support than 
you would get out of either of those taken separately.
    Senator Heinrich. Dr. Murray, do you have----
    Dr. Murray. I am not familiar with the literature on the 
two-family support work, so I am really not competent to 
respond.
    Senator Heinrich. Dr. Levin.
    Dr. Levin. I think it is an important innovation in 
thinking about public policy to understand that one of the 
problems that we have had in social policy in America is that 
it has been overly individualistic in how it thinks about 
people in need. That it has tended to isolate individuals even 
within a family, let alone within a community, and approach 
them as needing resources on their own.
    The fact is we are all dependent on one another. And I 
think any approach to social policy that recognizes that and 
that helps people help people who are dependent on them, that 
it be responsible, while also helping them meet needs, is an 
improvement.
    I would say that it is important not to force a model from 
the Federal level all the way down to the local level; to be 
supportive of different approaches, including this kind of 
approach, but not to assume that one size is going to fit all 
in a country that is as vast as is ours.
    Senator Heinrich. Dr. Small, do you have anything to add?
    Dr. Small. Largely that I would agree. I think the point 
that philosophically it is difficult to tell people to worry 
more about family but to create programs that only target their 
kids and not the parent does not make a lot of sense.
    I think also from a practical perspective what we have is a 
situation where there are out there very strongly skilled 
professionals who are specialists on children, or who are 
specialists on parents and workforce development, or early 
education, and therefore they do what they do best. I think in 
the absence of an outside intervention of the kind you are 
describing where there is an incentive for these different 
kinds of specialists to think about the family as a unit, it 
will be difficult for them to be naturally inclined to do so.
    So I actually find that with the idea that you are 
proposing to be very promising both from a philosophical but 
also from a practical perspective.
    Senator Heinrich. Thank you. Dr. Putnam, you have talked 
extensively about how weaker social networks among Baby Boomers 
could make their care dramatically more expensive as they age. 
And I have seen in my own family the importance of the 
interaction between being able to access health care, be it 
through the VA, private insurance, or Medicare, and then being 
able to have the social connections and the support that make 
life valuable.
    Would cutting health care coverage, for example--you know, 
we saw a bill emerge from the House in the last few weeks that 
cuts Medicaid by I think $800 billion, if I have my figures 
correct--does that, how does that make those social support 
challenges either more or less acute?
    Dr. Putnam. Thank you for that question. I first of all 
have to say I am not a gerontologist, so this is not a field 
that I--unlike some of the other stuff where I am willing to 
present myself as an expert, my work in this area is based just 
on looking at the implications for gerontology of what we 
already know. Namely, the Baby Boomers at every stage of their 
life have had just much less connection.
    I think too the policy options that flow from this are 
pretty clear, and I do not need much explanation for me. We are 
going to have to spend a lot more money than we currently 
realize on caring for aging Baby Boomers. Not just because 
there are a lot of them, but because they do not have the 
social support that the Greatest Generation, their 
predecessors, had.
    Whether that comes from public sources, Medicare--Medicaid, 
I mean, and Medicare, but Medicaid is the relevant portion 
because that is supporting the long-term care, or through 
private sources, that is a debate that both sides of this 
Committee are familiar with. And I do not have anything 
particularly to add to it, except to say the problem is real. 
It is not going to go away.
    I think that is all I can add to the conversation.
    Senator Heinrich. I am going to yield back the rest of my 
time so we can get to some of the other members.
    Vice Chairman Lee. Thank you.
    Representative LaHood.
    Representative LaHood. Thank you, Vice Chair Lee, for 
having this hearing. And I want to thank the witnesses today 
for your valuable testimony and for being here.
    There are really two statistics that jump out when I look 
at the materials today. One is the statistic that shows between 
1970 and 2016 the share of children in America raised by a 
single parent or by neither parent rose from 15 percent to 31 
percent. So doubled.
    And the second one is, between 1970 and 2015 births to 
single mothers rose from 11 percent of all births to 40 percent 
of all births.
    In looking at both of those statistics and the societal 
effects and the costs that it has on our country, and I think 
about that in a number of ways, and I think it affects rural as 
well as urban, I spent 10 years as a State and Federal 
prosecutor and in that role as a prosecutor before every 
sentencing we get a presentence report with the details of the 
defendant we are going to sentence. And 95 percent of them read 
the same when it comes to early childhood or background: born 
into a single family home. Did not have any of that upbringing 
that we are used to in a conventional family upbringing. And 
wound up early getting involved with the criminal justice 
system, drugs, alcohol, and led to, you know, further crimes in 
the system.
    And I think about the societal costs of these stark 
statistics: the public education system, particularly in our 
urban areas, how much money we throw at to increase graduation 
rates and drop-out rates. Not only the court system, but our 
jails and prisons and how they are full of kids in some ways 
and adults that are affected by a single-family upbringing, or 
no parent.
    And then of course health care costs, which we do not talk 
enough about, but mental illness, behavioral health that we 
have to pay money for, and drug and alcohol rehabilitation. And 
then of course our welfare system and how it drains on that.
    And as I listen to the testimony here today on what are the 
remedies, what from a public policy standpoint can we look at 
to help stem this tide? And it is difficult to find real 
success stories.
    And I know, Dr. Putnam, you talked about it being a purple 
issue. Dr. Levin, you talked about trying to increase marriage 
rates, and that was a failure. And trying to have more 
community input.
    But I guess from a public policy standpoint, sometimes 
throwing more money at it perpetuates the problems in many 
ways. And so trying to figure out, are there success stories 
that each of you can point to that have worked in specific 
areas? And are we--is the trajectory changing as we move on? Or 
is it going to continue? And I will start with Dr. Levin.
    Dr. Levin. Well thank you for the question. It is a vitally 
important question. I would say a couple of things.
    First of all, there are stories to tell about genuinely 
significant reversals in dangerous social trends. I think the 
example of teen pregnancy over the past 15 years is an under-
appreciated and under-studied example of a genuinely disastrous 
cultural trend genuinely turning around in a meaningful way.
    I would not say sitting here that I can give you an exact 
description of why and how that happened, but it certainly 
included some combination of bipartisan agreement about the 
existence of the problem, of frank discussion of ways of 
addressing it, ways of taking it on that made both sides of our 
politics uncomfortable, and ultimately a culture change that 
made a big difference.
    Now I do not think that there is in that a model for 
dramatically changing rates of family formation that could have 
the same kind of effect, but I think that again place by place, 
community by community there may be something to learn there.
    I would also say--and this is a challenging point to make 
in a way that does not diminish the significance of the 
problem--if you had told an American in 1950 that the rates of 
out-of-wedlock births would rise from 5 percent that year to 
almost 50 percent in 2017, and asked that person what our 
country would look like as a result, they would describe a 
country that looks much worse than our country. They would have 
described a hell scape that we would not recognize.
    The fact is that we have dealt with this problem in ways 
that can help us think about what success can look like. I do 
not think it is possible to return to the family formation 
rates of the 1950s. Those were very unusual. It is not the case 
that that is how things always were in America until the 1960s. 
It was a very unusual moment in post-War America, and it is a 
moment that we should be careful about using as a standard and 
a norm in all of our cultural discussions.
    People have found ways of thriving despite enormous 
disadvantages, including being born into broken families, which 
is an enormous disadvantage. I think we have a profound 
obligation to try to help people build stronger families for 
their children, and to try to help children grow up in stronger 
families.
    We also have an obligation to deal with the reality that a 
lot of Americans will not grow up in intact families, and to 
try to find ways of allowing them to thrive nonetheless. That 
is not to offer solutions, right? That is an answer in search 
of a final sentence that resolves the problem. But I do think 
that we need to think realistically about what problems we are 
looking for solutions to, and to define that in as broad a way 
as we reasonably can in public policy.
    Representative LaHood. Thank you.
    Dr. Murray.
    Dr. Murray. You asked specifically about marriage rates and 
out-of-wedlock birth rates and turning those around, are there 
any success stories?
    I am not familiar with any. Also, one has to recognize the 
degree to which this is a class-based phenomenon; that marriage 
rates for those in the upper middle class are still very high. 
They stopped declining in the 1980s. Divorce has gone down for 
the upper middle class since then. Marriage is alive and well 
in the upper middle class, and the bottom has fallen out of it 
in the working class. And the statistics I used in ``Coming 
Apart'' I focused specifically on non-Latino whites for a very 
clear reason. I do not want people to be under any illusion 
this is related to ethnicity. This is an American social 
problem.
    And at the time I was looking at those numbers, the ones 
for 2010 were that among white working class folks that you had 
48 percent married, down from the more than 80 percent in 1960. 
It has been essentially a collapse. And if you go to white 
working class communities, or I am sure black working class 
communities, or Latino ones, I do not know of any examples 
where marriage rates have risen.
    And if others on the panel have, I would love to hear it.
    Representative LaHood. Thank you.
    Dr. Putnam.
    Dr. Putnam. Actually I agree with the preceding two 
speakers. The statistics you quoted are of course right. The 
one you probably meant to include but did not is this one about 
class differences, the growth in out-of-wedlock births and the 
growth of fragile families is entirely concentrated in the 
working class. And that only makes the problem worse because it 
means that kids from one side of the tracks are not getting the 
same support at home.
    There is a surprising amount of consensus actually among 
experts here. There would not have been 10, 15 years ago, but 
there now is. And I think there is consensus on the following 
points:
    One, this is happening. That is, there is a growing class 
gap in family formation.
    Two, it is important. It does matter for the kids.
    Three, everybody recognizes that there are single moms who 
are doing a bang-up job against big challenges. So it is not a 
matter of blaming the moms. But nevertheless, it is a problem.
    Four, the change probably has been driven by a combination 
of cultural and economic factors. That is to say, you ask me, I 
am mostly on the left. I think there is a big cultural change 
that has happened, but I also think there have been big 
economic changes that have happened. And I think if we frame 
this as if we have to choose between why has this happened, is 
it really economics, or is it really culture, that is going to 
get in our way of trying to fix it.
    And the last point, I think we agreed that we can think of 
things on the economic side that might make a difference. That 
is, providing EITC or there are other ways in which you could 
provide greater economic support to families in this situation.
    But I think there is broad agreement, and you have all said 
that, that even though there are clear cultural causes of this, 
we do not know how to turn that dial except with respect to the 
teen pregnancy issue. It is important that we understand this. 
The teen pregnancy problem is--I do not want to say it is 
solved, but there has been a huge decline in teen pregnancy at 
the very same time that there has been a growth in out-of-
wedlock births. How could that happen? Because most of these 
out-of-wedlock births are not happening to teenagers, they are 
happening to people, couples in their 20s and 30s. And exactly 
how you begin to address that is, honestly, the cultural side 
of that is not so clear to me.
    I mean I think it would be great if we could figure out how 
to do that, but I do not know of any success stories at that 
level. And I think that is actually what I have said, most 
experts in this field would agree with what I have just said, I 
think.
    Vice Chairman Lee. Representative Maloney.
    Representative Maloney. Thank you.
    And, Dr. Putnam, thank you. Thank you for your books.
    Mr. Chairman, let me begin with a few thoughts on this 
hearing. Dr. Murray has rather infamously written, and I quote, 
``No woman has been a significant original thinker in any of 
the world's great philosophical traditions.'' End quote.
    Let us think about that for a moment. It is not only 
grossly unfair, it is demonstrably untrue. From Hypatia the 
great Greek mathematician, astronomer and philosopher who was 
the head of the Neopelatonic School during the Byzantine 
Empire, to Maria Mitchell, the first woman to discover a comet, 
to Grace Hopper who wrote COBAL, one of the first computer 
programming languages, to the now-famous mathematicians from 
the Academy Award winning nominated movie ``Hidden Figures,'' 
who helped America win the space race, Katherine Johnson, 
Dorothy Vaughn, and Mary Jackson, to Maria Mayer who won the 
Nobel Prize in Physics, and Speaker Ryan's all-time favorite 
philosopher Ayn Rand, these are just some of the lucky few, the 
women who defied the odds and the structural barriers to 
succeed in philosophy and science.
    Just think about how many more could have joined their 
ranks. Women solve problems, cure diseases, and invent the next 
great thing over and over again, yet we must continually combat 
the stereotypes in Dr. Murray's work.
    Offensive views about a woman's capabilities are wrong-
headed and hold women back from their full potential. These 
ideas keep women out of STEM fields in schools, out of 
executive positions at work, out of the board room, and out of 
Congress.
    We even see them in Presidential politics when one 
candidate claimed that a woman did not have, quote, ``the 
stamina,'' end quote, for the Presidency. These biases are a 
crutch and an excuse to not address the real barriers women 
face in our economy, under-investment in child care, the lack 
of any paid parental leave, unequal pay, and so on, and so on.
    In my humble opinion, Congress should not give these ideas 
a platform, and our Committee should not seek to elevate 
offensive claims that rely on spurious evidence.
    I would like to ask Dr. Small and Dr. Levin, we like to 
think about America on the cutting edge. But our policies hold 
back today's working families in so many ways. New parents are 
not guaranteed working families paid leave for the birth of a 
child. We are among two nations in the world that do not 
provide this safety net guaranteed to our families.
    Many eligible young people cannot access Head Start. Our 
Family and Medical Leave Act, a very important bill, but it 
should include other important family challenges such as 
conferences with teachers on a child's performance in school. 
And millions of low-wage workers do not have predictable 
schedules. They cannot even count on knowing when they are 
going to be working even a few days ahead of time, a situation 
that Senator Heinrich pointed out was a challenge his own 
mother confronted.
    So, Dr. Small, how would addressing these policies--these 
are concrete policies that we could address--how could 
addressing these shortcomings enable America's working families 
to build a better, stronger social capital and social network?
    Dr. Small. Congresswoman, thank you for that question. It 
actually provides a great opportunity to connect the prior 
conversation to this one.
    I would like to make an important observation about the 
rise in the rate of birth to unmarried mothers, which is that 
it is not so much the case that working class parents are 
driving the trend. It is that upper middle class parents are 
the exception. In other words, it is really only among upper 
middle class parents where this trend has not risen.
    In fact, to put this in perspective, you might remember 
that in the 1960s the old Senator Daniel Patrick Moynihan put 
out a report on ``The Negro family: A Case of National Action'' 
it was titled, and he pointed out that among African Americans 
birth to unmarried mothers were extremely high.
    Well today, births among middle class whites are higher 
than they were to unmarried--than they were, excuse me, to 
African Americans at the time Moynihan was writing. It is a 
trend that has happened across the board. Again, not upper 
middle class. But there are not just upper middle class and 
working class people. There are lots of middle class people out 
there, and among the middle class the trends are high, and they 
are higher than they were when Moynihan sounded the alarm.
    What this tells us is not that this is not an issue, but 
that the core problem was the lack of resources to manage 
giving birth as an unmarried mother, rather than just giving 
birth as an unmarried mother, because many middle class parents 
who are doing so today seem to be doing fine.
    In that context, I think the point you have made about the 
importance of opportunities for those mothers is essential. We 
are unique among the developing countries in the paucity of 
resources and opportunities we give to mothers early and 
shortly after--during and shortly after the birth of their 
children to participate fully in the economic system.
    This includes insufficient opportunities for paid leave. 
Also, insufficient support for full-time early education for 
their children. And also not fully effective or efficient 
enforcement of anti-discrimination legislation.
    I think if you saw support for these three things, you 
would find that those families who choose to do what 
increasingly everyone is doing will find that their mothers 
participate as fully in the economic system as their inherent 
abilities would naturally allow, and in many other countries, 
provide them the opportunity to do so.
    Vice Chairman Lee. Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman, for convening this 
very important hearing. And thank you to our extremely 
distinguished panel of witnesses for appearing today, and for 
all the important work you have done over the years.
    I would like to start with Dr. Putnam and your written 
testimony. On page 5 you write: ``This cherished American Dream 
is evaporating for over 25 million children born to low-income, 
less-educated parents in the last three decades.'' A little bit 
later you write, ``Rich kids and poor kids are now growing up 
in separate and unequal Americas.''
    That is the case across racial and ethnic lines, correct, 
Dr. Putnam?
    Dr. Putnam. Yes, sir.
    Senator Cotton. And you tell a story that I have seen with 
different names on it, most of us have, very poignant about 
Alissa and Layla. Alissa, a rich kid in Southern California 
whose parents can afford a fancy private school, and swimming 
lessons to get her into a better college, and Layla whose 
mother is out of work, who has to work at an entry-level job 
and go to a for-profit college hoping that she can get ahead. 
Those disparities that you write about I think we have all seen 
back home in our home towns and states with depressing 
regularity.
    You go on on page 6 to say further, ``Rich kids enter 
kindergarten almost a full year ahead of bottom-third kids and 
rich kids increasingly attend schools with other rich kids, and 
poor kids with other poor kids.''
    You have what you call ``Scissor Graphs'' on page 7 and 
page 8, which also tell the tale of the amount of time that 
richer parents, better educated parents, are able to spend time 
with their children and developmental time in what you call 
enrichment experiences like swimming lessons or summer camps, 
time spent together at family dinners and in extracurricular 
activities.
    I want to explore that further with a chart that we have 
here, and I will orient the audience to that chart. This is 
real hourly wages by education. So over here (indicating) you 
start at 1973. It is normalized to 100 where basically 
everybody is the same.
    And you see over time coming out to just after 2003. So 
this does not include continued disparities. The growth in 
wages or decline based on education. And you see a very strong 
correlation. Those with the most advanced degrees have seen the 
highest wage growth. College degrees nearly as high. But then 
here (indicating), some college but not a degree, barely any 
growth at all. High school graduation, a decline. Less-than-
high school education, a collapse in wages.
    Does this reflect what you write about in your written 
testimony, Dr. Putnam? Is this one of the driving causes of the 
decline in social capital and social trust among more stressed 
families and stressed communities?
    Dr. Putnam. Yes, sir. It is not the only cause, but it is 
an important background factor. And then, if I can add----
    Senator Cotton. Yes, please.
    Dr. Putnam [continuing]. What the work that I summarized in 
my testimony that I wrote about in ``Our Kids'' suggests is the 
translation of that graph into the scissors graph in individual 
families means that increasingly family status is inherited. It 
is passed from--increasingly, and that makes it even worse.
    Senator Cotton. And is that because in part divisions along 
educational and class-based lines become more self-reinforcing 
and perpetuating than older ethnic, or racial divisions did in 
the mid-20th Century?
    Dr. Putnam. Yes, sir.
    Senator Cotton. You write a little bit further in your 
testimony on page 10 about ``areas of interest that were left 
aside: successful economic and job development policies in 
communities are likely to have important positive effects on 
the local opportunity gap, but assessing such strategies was 
outside the scope of our expertise.''
    So the point there would be finding some way for people who 
have less than a college degree to once again partake in the 
American Dream that increasingly is out of touch for them?
    Dr. Putnam. Yes, sir. Can I add just two quick 
qualifications? One is, I used, quickly, rich and poor, but I 
was not comparing Bill Gates' kids to homeless kids. I was 
comparing kids coming from the upper third of American 
society--that is, kids coming from college-educated homes. My 
grandchildren are in that sense ``rich kids,'' although they 
are not rich. And I was not comparing them to the poorest of 
the poor. I am comparing them to what we used to call the 
working class. That is, people who did not get past high 
school.
    So I know you understand this, but I do not want the quick 
terms ``rich'' and ``poor'' to get misunderstood. We are 
talking about a basic----
    Senator Cotton. I come from Darnel, Arkansas, where $18,000 
makes me a millionaire.
    Dr. Putnam. Yes. Secondly, the passage of my testimony that 
you, written testimony that you referred to, came from a report 
that I chaired that was produced by 50 experts from across 
disciplines and across party lines and so on. We tried to 
figure out how can we begin to narrow the opportunity gap?
    And I have no doubt that local economic development 
strategies of the sort that you all explored in your previous 
hearing a month ago are important.
    I also think, however--and we did not talk about those 
here, but we did talk about a lot of ways in which individual 
kids coming from disadvantaged backgrounds could be helped to 
get back onto what we call ``on ramps,'' things like 
apprenticeship programs, and community college reforms and so 
on that would enable poor kids, kids coming from the bottom 
part of that graph, themselves to move up the ladder.
    That blockage, increasing blockage of circulation upward is 
I think a really grave problem for America.
    Senator Cotton. Thank you very much for those answers and 
the testimony, Dr. Putnam. And my apologias to other witnesses. 
My time expired. But I do want to just conclude by saying, to 
me one of the most important policy challenges we face as a 
Congress is to help find a way to increase the wages of people 
in our country who do not have college degrees, or who do not 
have advanced degrees.
    I would submit one of the easiest policy levers that we 
have is our immigration policy, to reorient our immigration 
policy towards supporting higher skilled workers as opposed to 
the current policy which is heavily skewed towards unskilled or 
lower skilled workers which directly competes with the workers 
in this area here.
    Thank you, Mr. Chairman.
    Vice Chairman Lee. Thank you.
    Representative Beyer.
    Representative Beyer. Thank you, Mr. Chairman. And thank 
all of you for coming to be with us today.
    As we engage in the conversation on social capital, I 
believe it is important that we remember that racism in our 
society is still very real. Just this weekend Alt-Right leader 
Richard Spencer, whose headquarters are right down the street 
from my house, led two white supremacist rallies, one by 
torchlight, in Charlottesville, Virginia, my own Commonwealth.
    The United States Congress itself has a long and ugly 
history on matters of race and gender. We are reminded of this 
every day as we walk past statues of by-gone bigots and 
misogynists. It is also worth remembering that those racist 
luminaries whose views and policies which were rejected by all 
535 Members of Congress, often turn to pseudo-science to 
justify hatred and exploitation.
    Cognizant of this history, we would hope that we would do 
everything in our power to make a clean break with that foul 
part of our legacy, as opposed to dressing it up in new clothes 
and returning it to these marble halls.
    Vice Chairman Lee, I am fascinated by the stated topic of 
this hearing today, and I found your past comments on social 
capital very valuable. But as I sincerely looked forward to 
discussing this issue in depth with Dr. Small, Dr. Levin, and 
Dr. Putnam, but I am dismayed that instead we are creating a 
forum for the discussion of critical economic issues in the 
best traditions of this Committee, the decision to invite 
Charles Murray risked turning this hearing into a sideshow.
    I cannot imagine, Senator, that a man of your intelligence 
and political acumen was unaware of the meaning and 
consequences of inviting Charles Murray. I will note that this 
seems no accident that Chairman Tiberi has taken the unorthodox 
step of abdicating this hearing to you, and that many of your 
Republican colleagues have chosen to avoid this hearing 
altogether.
    I am aware that arguments about free speech are often 
offered when defending invitations made to Dr. Murray, but I 
want to be clear: This has nothing to do with the First 
Amendment. The Constitution guarantees his right to write and 
say and publish whatever he wishes, but there is no 
Constitutional right to testify before a Congressional 
committee. And I do not believe that this Committee's time and 
resources should be used to burnish his reputation.
    After all, this is unconstrained exercise of his 
Constitutionally protected right of free speech that gave him 
his toxic reputation in the first place.
    Dr. Small, I found your testimony and your scholarship 
interesting, and I hope we have time to discuss it later in 
future depth, but I think we have to address the elephant of 
bigotry in the room. Can you give me your professional opinion 
of ``The Bell Curve'' as a matter of scholarship?
    Dr. Small. It's not a very good book. There are many 
reasons I could offer. I do not know how much time you have, 
Congressman. If you would like a longer answer, I would be 
happy to provide it.
    Representative Beyer. Well let me phrase it a little 
differently. What is your opinion of the utility of a book that 
argues that African Americans are born with lower IQs than 
White Americans? That there is a racially based genetic 
difference in IQ? Can this really be a guide for policymakers?
    Dr. Small. Not a very effective one, no.
    Representative Beyer. Let me move on, then.
    Dr. Putnam, I am in the heart of the Baby Boom. And at 
least the culture I was raised in, which was pretty mixed, like 
the one that you write about in your book, your most recent 
book, but we all went to church. We were all in the Boy Scouts, 
Little League, summer camp, dinner together at six o'clock.
    How come we don't have any friends? And why do we have 
fewer friends and fewer spouses and fewer children? Not the 
kids that are 25 and 30, but the ones that are 55 and 65?
    Dr. Putnam. Thank you for that question. I have spent a lot 
of time in the book building room, which was written now 20 
years ago, trying to understand why this had happened. And I 
teased out a variety of things that contributed to that, things 
that were happening in the years when you were growing up. 
Suburbanization, for example, is part of the problem.
    Television, I thought, was a big part of the problem 
because it privatized our leisure time. But then there was a 
big, unexplained part of why it happened. That is, there is 
clearly a big difference between the generation before the 
Boomers, that is, what other people call the Greatest 
Generation, who had very--sort of the parents of the Baby 
Boomers, had very, very high levels of social capital in every 
respect that we are talking about here: more family stability, 
more community involvement, more friends, and so on, than the 
Boomers.
    But why that is was a puzzle to me, and it is actually a 
bigger puzzle now. And the easy thought would be to think well 
it was World War II that created that sense of civic 
obligation, solidarity, and so on, and I think there is 
something to that. Forgive me now for alluding to coming 
attractions in response to that question. I am now at the 
moment up in the woods of New Hampshire trying to finish a book 
on that question: Why? Because it had not been happening 
forever.
    In the previous half of the 20th Century we were getting 
more and more connected. And then sometime in the 1960s there 
was a turning, and we began to be less and less. All of those 
things.
    And why that it is is still a mystery to me. When I finally 
crack the mystery I will finish the book and then I will be 
glad to come back and testify. I am sorry not to be helpful in 
the answer to that question.
    Representative Beyer. Thank you. Mr. Chairman, I yield 
back.
    Vice Chairman Lee. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. I appreciate you 
calling this hearing.
    But before I begin my questioning, I just want to briefly 
address a troubling aspect of this hearing, which we have heard 
from some of my other Members as well. Essentially we are here 
to discuss a very, very serious and valid issue in American 
society, the issue of building social capital in our 
communities. And I believe that many people on this dais today 
would agree that there is both declining trust in the 
institutions and a declining trust between fellow citizens.
    And we as lawmakers will play a very important role to help 
bridge these divides. However, before us today we have a 
witness who serves no purpose other than to bring divisiveness 
to this body. And while I am sure all of us here believe deeply 
in freedom of speech and expression, as well as the need for 
Congress to seek a wide range of opinions and expertise, a 
witness who has written extensively to promote racist and 
sexist stereotypes is a needless distraction from what we need 
to be doing here.
    To have someone who holds these views elevated alongside 
actual policy experts before us today is disrespectful to our 
other witnesses and members of the Committee in the important 
topics we have to discuss.
    So with that, I would like to take a look, a very broad 
look at what we are facing in this country that I am very 
concerned about. And that is, obviously declining social 
capital, but I look at it as just declining trust; that we are 
seeing this erosion of trust in our society that I think has 
very ominous implications for the democracy that we all love, 
and the Republic that we cherish here in the United States.
    And I have seen that trust over the years of public service 
that I have had. I was a State legislator for a number of 
years. Then I got out of politics and loved being out of 
politics for a while. And then when I came back in 2009 in 
Congress and started holding town hall meetings, this was a 
period of a few years between those two experiences. The 
reaction that I got from folks, the vitriol, the anger, the 
belief in issues irrespective of facts, was pretty remarkable 
in that time period.
    And we have continued to see it go forward. And I just give 
an example. During the health care debate in 2009 as we were 
debating the Affordable Care Act, I had town hall meetings, and 
some of my colleagues are having town hall meetings today, 
dealing with the opposite side of that issue, but I remember 
people screaming and hollering, not wanting to trust any 
statements that were made.
    I would even put statements on the board with the actual 
language of the bill, word for word, that you could get from 
any source, and people would scream, ``You're lying! You're 
lying!'' And I say, ``These are the facts.''
    And it seems now that we have gone to a world where facts 
do not matter; that we are in a post-truth world; that all 
news, if it is not news that people like, then it must be fake 
news. If you do not like judicial opinions, it is not because 
you do not agree with the judicial thinking behind the judge, 
it is because the judge is a ``so-called judge,'' or because of 
the ethnic background of the judge and cannot be critical.
    This erosion of trust that we are continuing to see, and 
seems to be accelerated particularly by particular political 
leaders who exploit that, I think has very ominous implications 
for the future of our country.
    So if our panelists--let's start with Dr. Putnam. Talk a 
little bit about what you are seeing as an erosion of trust 
broadly, and what you think that means for us going forward. 
And these are not issues that are going to be easy to solve as 
legislators, and be able to solve with any one particular 
Federal policy. You have talked about many policies here today, 
which are all great. But this is something much bigger than all 
of that. And we are not just seeing it in the United States. We 
are seeing it in Europe. We are seeing the kinds of movement, 
the kind of post-truth, post-order kind of movements around the 
world now. In fact, at the Munich Security Conference that I 
was at, one of the themes was how do we live in a post-truth 
world?
    How do we change that, Dr. Putnam?
    Dr. Putnam. Thank you for the question. It is obviously a 
fundamental one facing our whole country these days. But it is 
important to understand--I said ``these days,'' but it is 
important to understand that this trend, the trend in declining 
trust, and I would say trustworthiness too, and reciprocity, 
and mutual esteem, just being nice to one another, that trend 
goes back a long way. That did not begin in 2008. It did not 
begin in 2016. Pick your date, your political date. It didn't 
begin then. It has been going down for a long time.
    And I do not mean that you did, but a lot of commentators 
are talking about that and want to put the blame on some 
particular political person or ideology or moment----
    Senator Peters. And I do not want to do that.
    Dr. Putnam. I know that you don't, and I am insistently 
wanting to be purple here. This is not caused by particular 
political actions.
    If I can be a little academic for a moment--that's what I 
am--it is important to distinguish, as I lay out in my 
testimony, between two different kinds of social capital. 
Social ties that link us to other people like us--and that is 
called bonding social capital--and social ties that link us to 
people unlike us, and that's called bridging social capital.
    So my ties to other white male elderly Jewish professors, 
that is my bonding social capital. And my ties to people of a 
different generation, or a different race, or a different 
religion, or a different political party, that is my bridging 
social capital. I am not saying bridging good/bonding bad. 
Because if you get sick, the people who bring you chicken soup 
will represent your bonding social capital. But we need a lot 
of bridging social capital. Democracy needs a ton of bridging 
social capital. America has in the past been pretty decent 
about having bridging social capital. Sorry for the jargon. It 
just means you have good friends who do not share everything 
about you.
    There has been a collapse in bridging social capital in 
America. And part of that is because of this growing physical 
segregation that Charles Murray has talked about. We are not 
even living near other people who have different views from us.
    I think that is the right diagnosis. How to change that is 
a complicated problem. I could talk a lot about specific policy 
things, but actually I think we have to understand that is the 
fundamental problem. We are just pulling apart as a society, 
and not just with respect to who shows up at town meetings, but 
with respect to our daily lives.
    Senator Peters. Dr. Small. Dr. Levin. What about bridging 
capital? What do we need to do?
    Dr. Small. So I guess I would--thank you, Senator. The 
first thing I would say is I would agree, first of all, that 
trust in government is down. And also trust in media and news 
from multiple sources, communication sources, is also down. And 
as you all know, political polarization is also up.
    In terms of sort of what to do, I guess part of the way I 
would think about this question is in terms of the old saying 
about sunlight being the greatest disinfectant. I think trust 
in government needs an increase in transparency.
    While it may not reverse the long-term secular trend Dr. 
Putnam just referred to, it would certainly make a difference.
    I think strong support from the Federal Government for 
science and scientific research that is impartial and objective 
would also slowly begin to restore faith in certain 
institutions of government.
    So I agree that these problems are longer lasting than any 
single individual or set of people, but I guess I would have a 
more optimistic view about the potential for short-term actions 
that are in fact within the power of the Congress to begin to 
chip away at the distrust in some of our core institutions.
    Dr. Levin. Thank you, Senator, for the question. I think it 
is a very important facet of this set of trends that Dr. Putnam 
and Dr. Murray have described. And I just think Dr. Murray's 
very important book ``Coming Apart'' is one way of 
understanding how this has happened.
    To me one way of thinking about an approach to rebuilding 
trust is to think about how trust is built. And trust is 
largely built interpersonally. It is not built at a national 
level all at once, generally speaking. It is built between 
people. And I think that for us to build up more trust in our 
political life would require us to allow more of our political 
life and more of our public policy conversations to happen at 
the level where people meet each other face to face.
    And that suggests allowing more power to flow through local 
institutions, and to flow through community institutions. That 
is a very general answer. It is not particular policy formula 
for addressing this problem, but it seems to me that it would 
help us to turn down the temperature in Washington some so that 
we do not think of our politics as an endless fight to the 
death. And it would allow us to speak to each other face to 
face in ways that make it difficult to treat each other as 
simply caricatures.
    It is not always impossible to treat as caricatures people 
who are sitting right in front of you. I think it happens all 
the time. I think it is happening now in some respects. But I 
do think that it is harder, and that ultimately if we allow 
meaningful policy discussions to happen at levels where people 
can participate directly, they may be a little more likely to 
be drawn in. But, you know, that is an answer at the margins 
and I would not pretend that it is a solution to the problem 
simply.
    Vice Chairman Lee. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here. Thank you for testifying. I appreciate your 
coming before this Committee.
    Dr. Murray, in your testimony you came to the conclusion 
that part of the solution for the many challenges we face is 
likely to be less political and rather cultural. Could you 
elaborate on this point? And in particular, give your opinion 
of the importance of strong families, and faith, and community 
life towards improving social capital?
    Dr. Murray. I am basically going to second what Bob Putnam 
said earlier, that if we gathered people together 20 years ago 
on issues such as is religion really important social capital? 
Is the family, the traditional family really important, there 
would have been a huge divide depending on the political 
predilections of the people we are talking about.
    We have made progress on those fronts. And so now, I am not 
speaking as a person of faith, I am an agnostic actually, 
although I am wavering in my unbelief, and I have been 
divorced. So in all of those ways, I am not speaking as a 
``True Believer'' in the institutions of family and faith. I am 
speaking as a social scientist, as Robert Putnam is, saying 
this thing called social capital is absolutely crucial to the 
way that a free society works.
    It has been the signature of American exceptionalism, 
actually, from the time of Tocqueville, on through the rest of 
the 19th Century and into the 20th Century. The way that 
American communities worked was different from the way 
communities worked anywhere else in the world. And the reasons 
we behaved differently are captured in ``social capital'' as 
Robert Putnam has described it.
    And, that is going down the tubes. And it is going down the 
tubes in large part, not entirely but in large part because the 
institutions of family and of faith have deteriorated. So once 
again I have stated the problem. The progress consists of the 
much greater consensus that we have now than we had before. 
That does not get us any closer to a solution, with one glimmer 
of hope.
    The United States has had at least three, and maybe four, 
religious Great Awakenings, depending on which historian you 
read, and they had enormous consequences. There was one in the 
18th Century. There were two in the 19th Century. Maybe one in 
the 1970s. They had enormous consequences for the polity as a 
whole, and they also came out of nowhere. They coalesced. They 
had enormous impact, and you really could not see it coming.
    In a way the Civil Rights Movement reflects the same kind 
of phenomenon where the Civil Rights Movement really got going 
in the mid-1950s and by 1964 we had the Civil Rights Act.
    So if the United States has been able to turn culturally on 
a dime when the people sensed that things had gone badly wrong 
before, it is not inconceivable to me that it will do so again. 
And I can go no further in being helpful about how that might 
happen.
    Senator Cruz. Dr. Putnam, would you care to elaborate or 
amplify on any of those themes?
    Dr. Putnam. No. As we have said repeatedly, with respect to 
the importance of communities of faith and families, I think 
there is broad consensus among the experts. There is not broad 
consensus about why the problem has happened. That is, there 
are different views even probably among us about exactly why 
the family has collapsed, and exactly why people have turned 
away from communities of faith.
    And also I think probably we all agree it is not just those 
two institutions. Those are ones that Charles has emphasized, 
and I agree with that, but it is also true of Rotary Clubs and 
bowling leagues and many, many other examples of social 
capital.
    If I may, Senator, I would like to piggyback on some 
comments that other people have made that I agree with, 
actually. I do think that this problem, if we reverse engineer, 
if it is 2020 and we have begun to turn this around, the first 
signs will be at the State and local level around America. That 
is where America has in the past fixed its problems.
    And it involved and included exactly the period of the turn 
of the 19th to the 20th Century when there was another great 
religious fervor during that period, but not only that. It was 
also the period where labor unions got started. It was a period 
when most service organizations, Kiwanis, and Rotary, and keep 
going on. It was a period in which there were grassroots 
solutions to problems very much like the ones we face now.
    I give as one example, in response to the growing class gap 
then, in 1910, Americans in small towns in the heartland 
invented the high school. The high school that is free 
education for everybody in town, all kids in town, was not 
invented by--or if God did it, this is how He did it--in small 
rural towns, actually.
    Rich folks who had already sent their kids to private 
secondary education, boarding schools or something, became 
convinced that other people's kids should also have access to 
four years of secondary education. It turned out to be the best 
decision we've ever made because that, providing all kids in 
town with these supports, on the one hand raised the total 
productivity of the American labor force so much that that 
single decision when it spread nationally accounts for most of 
American economic growth throughout the 20th Century, and it 
leveled the playing field.
    Now I am not trying to say--please do not misunderstand 
me--that the high school, or maybe even any educational reform, 
is the solution to our problems now. I am trying to say the 
process by which we got there was by ordinary folks in ordinary 
towns where they were meeting face to face, and there was a lot 
of public division then--I am talking about 1900, 1910, big 
political turmoils, but people in face-to-face communities were 
able to put that aside and say, okay, so let that noise go on, 
how can we fix things here?
    My hope actually that we could begin as a country to turn 
this around is that as I go around the country talking to 
people, and especially in local communities, there is a lot, at 
the grassroots a lot of hope that things could begin to happen.
    Now will all the problems be completely solved at the local 
level? Absolutely not. We are going to need--at some point 
there are going to be some successes that come out of that 
period of new experimentation, and then we are going to say, 
okay, that turns out to be really great. Let's do that every 
place.
    So I am not saying that all these problems in the end are 
going to be solved at the national level--at the local level 
without national policies, but I am saying that that is where I 
think I would look for opportunities for making real progress 
outside the--to use language I used earlier--to look for purple 
solutions to this problem, not just red or blue solutions.
    Senator Cruz. Thank you.
    Vice Chairman Lee. Thank you, Senator Cruz. I want to thank 
each of our witnesses today. We decided to hold this hearing 
because it is on an important topic, and because it is such an 
important topic we sought to assemble four of the top experts 
in the entire country on this issue. And that is exactly what 
we did.
    This panel would have been incomplete without any one of 
you, and I am grateful to each of you for being here and for 
your willingness to reach out and identify issues that have 
gone unaddressed for too long, that have not been always 
socially popular, that have not always been on the cutting edge 
of getting news. They sometimes do get news, but perhaps not in 
the ways that anyone had intended at the outset.
    I appreciate your willingness to be here today and to 
inform us, and for your academic integrity and your objective, 
which is to identify issues that too often go unaddressed and 
are often ignored in our quest to address other more sexy, more 
popular, more palatable issues.
    These are difficult questions, and I deeply appreciate your 
willingness to shed light on them for our Committee. The record 
will remain open for five business days for any Member who 
would like to submit questions for the record.
    The hearing is adjourned.
    (Whereupon, at 11:52 a.m., Wednesday, May 17, 2017, the 
hearing was adjourned.)

                       SUBMISSIONS FOR THE RECORD

   Opening Statement of Hon. Mike Lee, Vice Chairman, Joint Economic 
                               Committee
    <bullet>  Our Nation, today, faces very real economic challenges. 
As we heard during our Committee's hearing, last month, economic growth 
during the recovery has been meager and uneven. The U.S. economy has 
become less dynamic and innovative in recent decades. We miss the 
strong productivity growth America enjoyed in the mid-twentieth century 
and the unusually large wage gains it brought.
    <bullet>  However, in historical and comparative perspective, most 
Americans enjoy unprecedented material living standards. Our economic 
problems often take the form of unsatisfactory rates of improvement; we 
are growing richer less quickly than we did when we were poorer.
    <bullet>  Nevertheless, many Americans--poor, middle class, and 
wealthy--feel that something is amiss. It is a feeling that cannot be 
reduced to economic anxiety. Rather, there is a sense that our social 
fabric is fraying.
    <bullet>  And these concerns are reflected in objective measures of 
family and community health. To cite just a few of the trends that may 
be grouped under the rubric of ``social capital'': marriage and 
churchgoing have declined; distrust of the Nation's institutions has 
grown; mixed-income neighborhoods have become rarer; regional 
polarization has increased; and young men who are neither working nor 
looking for work have become more numerous and more isolated. We do 
less together than in the past, and we are worse off for it, 
economically and otherwise.
    <bullet>  Today's hearing, along with a new report released on 
Monday, launches the Social Capital Project, a multi-year research 
effort I have established in the Vice Chairman's office. The project 
will investigate the health of the bonds of family, faith, community, 
and work that define our lives.
    <bullet>  An emphasis on social capital complements the economic 
lens through which we typically view national challenges today. Many of 
our ostensibly economic problems reflect the withering of our 
associational life. For example, the fragility of so many families 
today reduces upward mobility. And diminishing trust has implications 
for the decline in business dynamism, since risk-taking requires 
confidence in each other and our institutions.
    <bullet>  Economic trends, in turn, affect the extent to which we 
cooperate to achieve our desired ends. The project's inaugural report, 
``What We Do Together,'' concludes that rising affluence has reduced 
the economic necessity of having close ties with neighbors and 
traditional institutions. It also highlights the extent to which the 
growth in two-worker families has affected investment in social 
capital. These economic changes have conferred valuable benefits, but 
by depleting social capital, they have also come with costs.
    <bullet>  The twin pillars of American freedom--a free enterprise 
economy and a voluntary civil society--exist and operate in the vital 
space between the government and the individual where organic 
communities form and networks of economic opportunity and social 
cohesion are built. It is my hope that the Social Capital Project will 
start a new conversation for our country that emphasizes social 
solidarity and mutual cooperation. As we face today's economic 
challenges, policymakers should ask how we can empower civil society, 
and what government should or should not do to thicken the middle 
layers between the individual and the State.
    <bullet>  I now turn to Ranking Member Heinrich for his opening 
statement, and I'll then introduce the witnesses. Thank you.
                               __________
   Prepared Statement of Hon. Martin Heinrich, Ranking Member, Joint 
                           Economic Committee
    The topic of social capital is an important one, especially when it 
is used to build communities up.
    I worry, though, that this conversation could be used to blame 
disadvantaged communities for not being successful.
    It's easy to generalize about people and communities. But we must 
resist doing that.
    Because it is offensive to use this platform here in Congress to 
promote the institutionalizing of stereotypes or discrimination. It is 
offensive, and frankly not constructive, to blame communities for the 
challenges they face.
    There is no substitute for a strong economic foundation and smart 
investments in our children and workers. Social networks help, but 
investments in individuals and communities are key to building a better 
future and a more vibrant economy.
    I think we'd all agree that Congress cannot force people to marry, 
become friends with their neighbors, or join civic organizations or 
churches. We need to be both strategic and realistic about the policies 
we pursue.
    When I was a child, both of my parents worked.
    For my father, his union job helped him earn a higher wage and 
protections at work. Belonging to a union is a source of social 
capital, and my family benefited from that.
    My mom, on the other hand, didn't have a union job. Her schedule 
was three weeks on with one day off for a wage that undervalued her and 
her work, leaving her with little time to spend building networks.
    So as we prepare to hear about the role of social capital, about 
ways to help working families get into the middle class--to even have 
the time to make community connections and shore up social capital--
it's important that we not lose sight of investing in people like my 
mom.
    Right now, the deck is stacked against some and in favor of others.
    Children of wealthier parents start with a leg up. Good schools are 
increasingly concentrated in wealthier areas, leaving millions of 
children behind.
    While a college education has been long thought of as a path to the 
American Dream, that path is financially out of reach for many 
Americans.
    As Americans, we have a deep commitment to everyone getting a fair 
shot. To achieve that, government has a significant role to play.
    It must provide the essential building blocks -affordable child 
care and early learning, quality K-12 education, comprehensive health 
care and access to affordable post-secondary education.
    We can break the cycle of poverty by simultaneously providing 
programs and supports to parents and their children. The two-generation 
approach is evidence-based, data-driven, bipartisan policy that works.
    I've seen the power of 2-gen models in New Mexico. Initiatives like 
The United Way's Early Learning Center in Santa Fe which offers year-
round, full-day services for children right next to technology, 
employment and social service assistance for parents. All under one 
roof.
    Helping parents and children in these programs develop supportive 
networks is an important component of helping these families achieve 
success--and building stronger communities.
    We must expand proven programs like the EITC and the child tax 
credit that lift almost 10 million people out of poverty each year.
    We need universal pre-K starting at age 3. We have long known that 
investments in early education boost education outcomes, and increase 
earnings.
    Government cannot--and should not--go it alone.
    In Gallup, Carlsbad, Silver City and throughout New Mexico, it's 
the schools, churches, nonprofits, businesses and philanthropic groups 
that define a community. They are the community anchors.
    But, government must provide the basics.
    Dr. Small's research on Head Start attendance reminds us that 
limited, inexpensive interventions can have meaningful impacts.
    His research found that when parents of Head Start students 
developed networks, attendance improved.
    Just one example. But we can learn two important things from this 
research: first, that social networks can strengthen an already 
effective program. And second, that without that government program we 
wouldn't have the foundation on which to build.
    I look forward to your testimony.
                               __________
            Prepared Statement of Hon. Margaret Wood Hassan
    <bullet>  Vice Chair Lee, and Ranking Member Heinrich.
    <bullet>  I want to begin by expressing my disappointment that my 
colleagues across the aisle have chosen to give a platform to a man who 
has peddled deeply offensive and thoroughly discredited theories 
questioning the intelligence of women and racial minorities.
    <bullet>  Mr. Murray's work relies upon twisting statistics to 
argue that women and minorities are intellectually inferior as a matter 
of genetics--and it has no place in the important discussion before 
this committee today on social capital.
                               __________
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                               
  Prepared Statement of Charles Murray, W. H. Brady Scholar, American 
                          Enterprise Institute
    Members of the Committee have before them the excellent report, 
``What We Do Together,'' from the Social Capital Project, and the 
presence of Robert Putnam, who knows more about American social capital 
than anyone in the world. So what am I supposed to add?
    I've decided to emphasize how complicated are the effects of the 
deterioration of social capital on human behavior. Statistics on the 
decline of marriage and of male labor force participation are 
important. But they tend to make the task of solving those problems 
sound too straightforward. Fewer people are getting married? Maybe that 
can be fixed, or at least ameliorated, by higher working-class wages so 
that people can more easily afford to get married. Males aren't in the 
labor force? We need more and better job opportunities.
    I am not saying such solutions would have no good effects. But the 
actual problems reach deeply into the ways that humans are socialized 
into institutions like marriage and the labor force. A good way to get 
a grip on those actual problems is Prof. Putnam's book, ``Our Kids.'' 
The heart of that book consists of five accounts of real people and 
real families in Atlanta, Philadelphia, Orange County California, Big 
Bend Oregon, and Port Clinton Ohio. Those stories provide ammunition 
for Bernie Sanders and Charles Murray alike. We hear the voices of the 
unemployed whose manufacturing jobs were exported abroad--a real 
problem--and the voices of people who quit good jobs because they 
didn't feel like working or who got fired because they showed up late, 
shirked their tasks, and got in fights with coworkers--another real 
problem. We hear stories of unmarried low-income parents who were 
fiercely devoted to their kids and of other parents who created 
children casually and walked away from them casually.
    But if I had to pick one theme threaded throughout all of these 
superbly told stories, it is the many ways in which people behaved 
impulsively--throwing away real opportunities--and unrealistically, 
possessing great ambitions but oblivious to the steps required to get 
from point A to point B to point C to point D in life. The same theme 
appears in steroids in J.D. Vance's best-selling memoir, ``Hillbilly 
Elegy.'' He describes an America that is still the land of opportunity; 
we know it is, because his parents and extended family squandered a 
prodigious number of opportunities. You read Vance's account and keep 
saying to yourself, ``Why are they behaving so self-destructively?''
    It comes down to the age-old problem of getting people, especially 
young people, not to do things that are attractive in the short term 
but disastrous in the long term and, conversely, to do things that 
aren't fun right now but that will open up rewards later in life. The 
problem is not confined to any socioeconomic class. The mental disorder 
known as adolescence afflicts rich and poor alike. And adolescence can 
extend a long time after people have left their teens. The most common 
way that the fortunate among us manage to get our priorities straight--
or at least not irretrievably screw them up--is by being cocooned in 
the institutions that are the primary resources for generating social 
capital: a family consisting of married parents and active membership 
in a faith tradition.
    I didn't choose my phrasing lightly. I am not implying that single 
parents are incapable of filling this function--millions of them are 
striving heroically to do so--nor that children cannot grow up 
successfully if they don't go to church. With regard to families, I am 
making an empirical statement: As a matter of statistical tendencies, 
biological children of married parents do much better on a wide variety 
of important life outcomes than children growing up in any other family 
structure, even after controlling for income, parental education, and 
ethnicity. With regard to religion, I am making an assertion about a 
resource that can lead people, adolescents and adults alike, to do the 
right thing even when the enticements to do the wrong thing are strong: 
a belief that God commands them to do the right thing. I am also 
invoking religion as a community of faith--a phrase that I borrow from, 
guess who, Robert Putnam. For its active members, a church is far more 
than a place that they go to worship once a week. It is a form of 
community that socializes the children growing up in it in all sorts of 
informal ways, just as a family socializes children.
    This is not a preface to a set of policy recommendations. I have 
none. Rather, I would argue that it is not a matter of ideology but 
empiricism to conclude that unless the traditional family and 
traditional communities of faith make a comeback, the declines in 
social capital that are already causing so much deterioration in our 
civic culture will continue and the problems will worsen. The solutions 
are unlikely to be political but cultural. We need a cultural Great 
Awakening akin to past religious Great Awakenings. How to bring about 
that needed cultural great awakening is a question above my pay grade.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   Response from Dr. Putnam to Questions for the Record Submitted by 
                      Senator Margaret Wood Hassan
             hearing question: opportunity gap in education
    To Dr. Putnam:
    <bullet>  Dr. Putnam, in your testimony and your book, ``Our Kids: 
The American Dream in Crisis,'' you quote a landmark study from 
Stanford sociologist Sean Reardon that shows a widening ``class gap'' 
in both math and reading scores among American kids.
    <bullet>  This study, along with your research in the book, and 
your testimony today speak to the fact that differences in success are 
not race-based, but result from differences in the opportunities 
children are provided.
    <bullet>  Can you address the difference between a racial gap and a 
class gap, and how do we as legislators work to close this opportunity 
gap?

    Inequality in the United States increasingly operates through 
education--a scarce resource in our knowledge based economy and a 
measure that is closely correlated with parental socioeconomic status. 
As Reardon's work shows, and my work broadly confirms, controlling for 
education, racial gaps in income, family structure and test scores, 
though still dismaying, are falling. On the other hand, racial gaps in 
schooling remain immense. Black parents in America remain 
disproportionately concentrated among the poor and less educated, so 
black children continue to be handicapped from the start. Whether their 
parents are rich or poor, black children live in poorer neighborhoods 
than white children at that income level, and black children experience 
less upward mobility and more downward mobility than their white 
counterparts who started at the same income level. So purely racial 
biases remain powerful, but as barriers to success they represent less 
burdensome obstacles for minority youth today than they did in the 
1950s. By contrast, in modem America one barrier looms much larger than 
it did back then--class origins--and that barrier cuts across racial 
lines. Most racial disparities in opportunity today operate through 
class disparities. Action to address the growing class gap would 
brighten the prospects for disadvantaged kids of all races.
    As I discussed in my written testimony, the growing class gap in 
opportunity has many sources--family stability, parenting, growing 
class segregation, access to supportive institutions from day care to 
neighborhoods to schools to extracurricular activities to post-
secondary education. A broad menu of policy remedies for these issues 
is presented in the report ``Closing the Opportunity Gap,'' prepared by 
a national, bipartisan group of experts that I chaired in 2016: https:/
/www.theopportunitygap.com/the-report/. Among the most promising 
approaches are high-quality early childhood education, supports for 
low-income parents, improved mentoring, enhanced investment in low-
income schools, and greater linking of the worlds of work and 
education. Many of those policy options are now being pursued by a 
nationwide coalition of scores of community foundations--from Seattle 
to Miami and Mobile to Duluth--led by the New Hampshire Charitable 
Foundation.
                hearing question: women in the workplace
    To Dr. Putnam:
    <bullet>  One group that may not be reaping the benefits of social 
capital in the workplace is women, who can be left out of the network 
men are traditionally more able to take advantage of.
    <bullet>  Mr. Putnam I know that you've talked about bridging 
social capital, the bonds between groups--how should we be thinking 
about how we can help women build this capital in the workplace?
    <bullet>  Furthermore, what are ways that organizations can, or we 
can encourage organizations to bring women into these traditionally 
male-dominated networks so that they can be more properly represented 
throughout the hierarchy of the organizations?

    It is certainly true that access to high-quality social networks is 
increasingly essential to career success, as well as to life 
satisfaction more broadly. It is also true that while women have 
historically been better ``networkers''--that is, more attuned to the 
importance of interpersonal connections and social capital--they have 
not had equal access to those informal professional networks that have 
had the highest economic payoff. Seeing the world through the ``social 
capital lens'' highlights the importance of access to such social 
networks.
    That said, I am not an expert on gender in the workplace, so I do 
not consider myself professionally qualified to survey relevant 
evidence on this topic, still less to offer specific policy 
recommendations.
                               __________
   Response from Dr. Putnam to Questions for the Record Submitted by 
                         Senator Amy Klobuchar
                            apprenticeships
    As a part of your work on social capital, you convened a group of 
50 experts to identify possible approaches to narrow the opportunity 
gap. One of those areas is building stronger school-to-work linkages. I 
have been working to expand access apprenticeships and pre-
apprenticeship programs.
    <bullet>  Dr. Putnam, in what ways can apprenticeship model be 
expanded to serve more high school students across the country?

    In responding to this question, I draw heavily on the report 
``Closing the Opportunity Gap,'' prepared by a national, bipartisan 
group of experts that I chaired in 2016: https://
www.theopportunitygap.com/the-report/. Professor Katherine S. Newman 
chaired the working group on ``On-Ramps for Success,'' and Professor 
Newman is herself a nationally recognized expert on apprenticeship.\1\
---------------------------------------------------------------------------
    \1\ For much more depth on what high-quality vocational education 
and CTE look like, see K. Newman and H. Winston, Upskilling America: 
Learning to Labor in the 21st Century (New York: Metropolitan Books, 
2016).
---------------------------------------------------------------------------
    We need a more effective workforce-training system to equip today's 
youth with the skills needed to compete--one that starts early, by 
giving our youth more intentional and exciting exposure to the world of 
work.\2\ This motivates them for the long educational road ahead and 
helps them choose courses or programs that would prepare them.\3\ Other 
countries--especially Germany and Austria--do a better job of this, by 
(a) exposing all students to demanding career and technical education; 
(b) engaging employers, unions, and educational institutions in 
training that produces young people with certified, advanced skills; 
and (c) enabling serious and sustained exposure to work through 
apprenticeships, co-ops, internships, and planned experiences.
---------------------------------------------------------------------------
    \2\ American middle and high schools sometimes have a ``bring your 
daughter (or son) to work'' day, but these are haphazard and limit 
students' exposure at best to their parents' occupations. Our group 
recommends exposing middle and high school students systematically to 
the world of work through short-term visits to help shape future 
choices and help students understand how academic coursework prepares 
them for later careers. This is the norm in Germany, where students 
from the eighth grade typically spend two weeks shadowing adults in 
factories and offices. Students should get information about career 
opportunities and the educational pathways these careers require. 
Beyond exposing young people to the work world, institutions need to 
develop more robust social networks that will assist kids born to less-
educated families, who are less likely to have personal contacts in 
professional careers. Intermediary institutions (either volunteer or 
school-run) can help pair kids from less-educated families with a 
mentor-shadow in their desired careers. This exposure at a younger age 
will help illuminate career pathways and help students in high school 
decide if they want to go to college or start career preparation in 
high school.
    \3\ One example of this are individualized learning plans (ILPs) in 
middle school and high school. [This is different than the 
Individualized Educational Plans (IEPs) that students in special 
education utilize.] Thirty-eight states have begun using ILPs with 21 
states mandating them for all. An ILP is a step towards ensuring that 
all students leave high school both career- and college-ready. The ILP 
should involve discussions and/or diagnostic tests to evaluate student 
strengths and career interests. Once student career interests are 
established, the ILP links courses and post-secondary plans to a 
student's career goals and tracks the skills that a student has already 
developed towards being college- and career-ready. This ILP should also 
involve discussions of how extracurricular and out-of-school learning 
could further this skill development.
---------------------------------------------------------------------------
    Many of us today think of vocational education as what it used to 
be, involving dull, undemanding classes in ``shop'' and ``home 
economics'' that are not strongly connected to future careers. But many 
high schools are now pioneering or furthering high-quality career and 
technical education (called CTE or CATE).\4\ These programs can also 
engage students who learn better by doing, through applied and 
inductive learning. This CTE training prepares students for both 
college and careers, and should be made available to all (although more 
should be required for students immediately going into careers). 
Successful examples include Career Academies,\5\ High Schools that 
Work/Linked Learning, and Small Schools of Choice\6\:
---------------------------------------------------------------------------
    \4\ See Newman and Winston, Upskilling America, 2016.
    \5\ J. J. Kemple, ``Career Academies: Long-Term Impacts on Work, 
Education, and Transitions to Adulthood,'' MDRC (2008).
    \6\ These 400 schools have considerable variation but all arose out 
of an innovation process, and all the schools provide closer student-
faculty ties, stronger community partnerships, and rigorous academics.
---------------------------------------------------------------------------
    Work-based learning: Apprenticeships that coordinate classroom and 
on-the-job learning can often create very helpful on-ramps. The 
practice is growing in the United States \7\ but is still used far less 
than in some other counties (e.g., Germany and the UK). In Germany, and 
in most union-based U.S. models, an industry-educational group must 
agree on the competencies that a given apprenticeship must develop, and 
these competencies must have broader relevance beyond the specific 
employer. Non-union U.S. apprenticeships are typically more employer-
specific. Apprentices also benefit because their on-the-job supervisor 
often unofficially serves as a career mentor or coach. Apprenticeships 
have worked in a wide range of settings in the U.S., including high-
unionization (e.g., Wisconsin) and low-unionization environments (e.g., 
South Carolina).\8\ To be successful, states or localities need to 
establish an intermediary to recruit schools and businesses to 
collaboratively train the talent needed for existing and new 
businesses. Community colleges are an obvious candidate for that role. 
In some cases, as in South Carolina or Georgia, businesses are offered 
small tax credits to participate as sites for apprentices--the cost of 
credits to the State is more than offset by tax revenues from 
graduates' downstream employment. Many apprenticeships enable students 
to earn college degrees while working, so that they can develop 
transferable skills if they decide to change jobs or fields.\9\
---------------------------------------------------------------------------
    \7\ Note: there is a U.S. national office of registered 
apprenticeships that sets standards, provides grants, and encourages 
employer/education collaboration.
    \8\ South Carolina has attracted significant investment in new 
factories of German firms hungering for more skilled workers; some 
attribute this success to the value of apprenticeships, while others 
think it is the prevailing low-cost wage structure and right-to-work 
laws.
    \9\ For an example, see the Newport News (VA) Apprentice College 
described in ND Schwartz, ``A New Look at Apprenticeships as a Path to 
the Middle Class,'' New York Times (July 13, 2015).
---------------------------------------------------------------------------
    Our current ``BA-for-all'' policy has deprived many American youth 
of vital on-ramps to jobs. To bring about meaningful change, we 
recommend increasing early exposure to potential careers, to make all 
young Americans more thoughtful about where they want to head and how 
to get there. We also recommend developing pathways of the sort 
discussed in this report to help Americans realize the many respectable 
ways they can achieve a stable and comfortable living without the need 
for a four-year degree.
                               __________
   Response from Dr. Small to Questions for the Record Submitted by 
                         Senator Amy Klobuchar
                           childcare centers
    Dr. Small, in your testimony, you noted that mothers who enroll 
their children in childcare centers tend to have greater social 
capital. In Minnesota, 75 percent of children live in a childcare 
desert, which means that these children do not live near high-quality, 
affordable childcare.
    <bullet>  Can you discuss the benefits that childcare has for the 
parents as well as the children?

    For such a high proportion of children to not live near high-
quality, affordable childcare is a serious problem. High-quality early 
childcare prepares children educationally at a crucial time in their 
development, helps families return to and maintain their participation 
in the labor force, and provides parents with the means for more 
effective parenting.
    The value and significance of early education has been documented 
many times over. Education certainly benefits people at any point in 
the life course. But quality education in the early years has been 
shown to be essential for the long-term educational and economic 
success of children, yielding benefits for them and for society as a 
whole.\1\
---------------------------------------------------------------------------
    \1\ See James J. Heckman, 2006, ``Skill Formation and the Economics 
of Investing in Disadvantaged Children,'' Science 312(5782):1900-02.
---------------------------------------------------------------------------
    Childcare also helps parents. Parents of young children often 
report that access to daycare helps them return to and participate 
fully in the workforce. The need is especially important for low-income 
families, where financial needs or work requirements create strong 
demand for childcare.
    In fact, childcare can help parents become better parents. 
Researchers have documented that enrolling their children in childcare 
centers provides parents with access to a network of other parents, 
teachers, and organizations that provide social support and other 
resources from the private and public sectors.\2\ For this reason, 
research has shown that low-income households suffer significantly less 
material hardship after enrolling their children in childcare centers 
than comparable households that do not, even after taking into account 
their prior hardship.\3\ Mothers in those households also experience 
significantly better mental health, because of the social supports 
developed.\4\ As a result, we can expect them to be stronger and more 
effective parents.
---------------------------------------------------------------------------
    \2\ See Mario L. Small, 2009, Unanticipated Gains, Oxford Univ. 
Press.
    \3\ Small, Chapter 2.
    \4\ Small, Chapter 2.
---------------------------------------------------------------------------
    Any society that hopes to remain competitive in the twenty-first 
century must find ways of providing access to high-quality early care 
and education.
                               __________
   Response from Dr. Small to Questions for the Record Submitted by 
                     Ranking Member Martin Heinrich
    1) We've heard quite a bit of discussion about whether American 
culture is in decline, how that could be impacting economic growth, and 
what role Congress could play. Could you expand on your views on this 
question?

    The idea that American culture is in decline owes more to nostalgia 
than to a clear reading of the facts. Over the past generation or two, 
some forms of social capital have declined, such as participation in 
some kinds of activities (e.g., bowling leagues) and some forms of 
civic engagement. However, others have increased, such as the extent of 
participation with communities far beyond one's local neighborhood or 
town. In addition, many forms of cultural acceptance are increasing. 
For example, the proportion of Americans who believe that marriage 
between people of different races is morally acceptable is much higher 
than it was during the 1950s. The extent of support for equal rights 
for all groups is also much greater than it was two generations ago. 
All of these are signs of cultural enlightenment, not decline.

    2) At the hearing, you mentioned how single-parent births are 
increasing for all groups, except perhaps those at the top of the 
income ladder. Could you expand on this issue and discuss what role 
this issue should--and should not--play in decisions before Congress?

    Births to unmarried women have increased since the 1960s across 
Americans of all class backgrounds. The CDC does not report births to 
unmarried women by class, but researchers have found ways of uncovering 
the trend. One indicator of class is educational attainment. And one 
indicator of the rate is the proportion of mothers who are single and 
who have a child less than one year old, which tracks very closely with 
births to unmarried women.
    In 2015, demographers Sara McLanahan and Wade Jacobsen showed that 
between 1960 and 2015 the proportion of mothers in this category has 
grown for mothers at all education levels. For those in the bottom 
quarter of the education distribution, the proportion has increased 
from just over 10% to just under 50%; for those in the middle half of 
the distribution, from about 5% to about 40%; for those in the top 
quarter, from less than 5% to more than 10%.\1\
---------------------------------------------------------------------------
    \1\ Sara McLanahan and Wade Jacobsen, 2015, Pages 3-23 in 
``Families in an Era of Increasing Inequality,'' edited by Paul R. 
Amato, Alan Booth, Susan M. McHale, Jennifer Van Hook, National 
Symposium on Family Issues 5, DOI 10.1007/978-3-319-08308-7--1.
---------------------------------------------------------------------------
    Notably, the growth has been roughly equally steep for the bottom 
two groups, which represent everyone up to the 75th percentile of the 
education distribution. In other words, the increases have been steep 
for the vast majority of mothers. At the very top of the education 
distribution, the increase has been less steep. However, notice that it 
has still been an increase, and the rates have more than doubled. 
Simply put, giving birth while single is far more common than it used 
to be for mothers of virtually all class backgrounds. The idea that 
only the working class has seen an increase in single births is wrong.
    The rate of births to unmarried mothers is something that Congress 
should certainly consider as it examines the expansion or contraction 
of the safety net. Paid family leave and early child care are probably 
more important today than they have ever been. At the same time, most 
researchers would probably be skeptical of efforts to reverse the 
national trends in births to unmarried mothers, even as they 
acknowledge that the trends are worrisome. Past efforts to reverse 
these trends have been costly and have not been successful. Instead, 
Congress should devise policies that take into account the new and 
diverse composition of the modern family.

    3) Discussions about families often focus on a ``Leave It to 
Beaver'' nostalgia, highlighting the best of times and glossing over 
the hardships and struggles that left many behind. At the hearing, some 
witnesses discussed the decline of the ``traditional family'' as having 
a negative impact on social capital. Unfortunately, that narrow 
definition of a family excludes many and seems to discount the social 
capital associated with non-traditional, modern family structures. How 
should policymakers be thinking about modern families and ways to 
support them?

    Many people remember the 1950s fondly. But many also remember the 
1950s as a time of unequal protection before the law, of State-
sanctioned segregation, and of high levels of intolerance, as 
indicated, for example, by the widespread opposition to interracial 
marriage and the meager support for gay rights. When thinking about the 
changes that the country has experienced, it is important to take all 
cultural changes into account, and to acknowledge that many types of 
community and acceptance have, in fact, improved. A wholesale return to 
the cultural and social attitudes of the 1950s would not benefit the 
country today.
    Modern families probably seek the same level of social engagement 
that those of the past did. To cultivate that engagement seriously, the 
country must, first, acknowledge that most mothers today participate in 
the paid labor force. A set of policies that support robust paid family 
leave and affordable early childcare represent an essential first step. 
Such policies not only allow women equal participation in the labor 
force; they also both allow time for and encourage the social 
engagement essential to high collective social capital. It is not 
surprising that many of the industrialized countries with high levels 
of social capital strongly support the family.

    4) You testified about how social networks can strengthen already-
effective programs like Head Start. What other programs or policy areas 
would benefit from including a focus on building social networks?

    Although my expertise lies in the role of social networks among 
parents in early education and childcare centers, it is clear that 
social networks can make a difference in other arenas. The most natural 
extension is the K through 12 system, where many researchers have shown 
that schools with effective parental networks work more effectively for 
both parents and children. Exploring ways of cultivating parent 
engagement--not merely with the school but also with one another--may 
help local communities do far more with the resources available.
    Another important context is workforce development programs. The 
ability to cultivate and mobilize social networks effectively has been 
shown repeatedly to affect success in the labor market. Many of the 
best workforce development programs have ongoing relationships with 
employers, which represents an essential step in securing placement. 
But both long-term employment and resilience in the face of layoffs 
benefit from the ability to continuously cultivate and mobilize social 
networks.

    5) Is a decline in social capital the primary driver behind the 
limited economic opportunity that some communities are experiencing? 
What are the main barriers to economic opportunity?

    The decline in social capital is not a primary driver of the 
limited economic opportunity that many are experiencing. The evidence 
is overwhelming that far more important factors are inadequate public 
education, under-resourced or unsafe neighborhoods, and discrimination 
in employment, pay, or promotion. There is strong consensus that a 
robust increase in high-quality early education, coupled with an 
improvement in comprehensive, accountable K-12 education is one of the 
most effective investments the Nation can make to improve economic 
opportunity for all.
                      Submitted by Senator Cotton

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
